Report No. DODIG-2012-087            May 29, 2012





          Logistics Modernization Program System 

                   Procure-to-Pay Process 

           Did Not Correct Material Weaknesses

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE 

                                       4800 MARK CENTER DRIVE 

                                    ALEXANDRIA, VIRGINIA 22350-1500 





                                                                                        May 29,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER, DOD
               DEPUTY CHIEF MANAGEMENT OFFICER
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Logistics Modernization Program System Procure-to-Pay Process Did Not 

         Correct Material Weaknesses (Repolt No. DODJG-2012-087) 


We are providing this final report for your review and comment. This report addresses the
Army's implementation of one of the DoD Business Enterprise Architecture end-to-end business
processes within the Logistics Modernization Program system. Despite spending about
$1.8 billion, Army managers did not accomplish the reengineering needed to integrate the
Procure-to-Pay functions to comply with DoD Business Enterprise Architecture requirements
and correct material weaknesses. We considered management comments on a draft ofthis report
when preparing the final report.

DoD Directive 7650.3 requires that recOlTllllendations be resolved promptly. We received
comments from the Deputy Chief Management Officer and the Assistant Secretary of the Army
(Financial Management and Comptroller). The Deputy Chief of Management Officer comments
were responsive, and no fUlther comments are needed. The Assistant Secretary of the Army
(Financial Management and Comptroller) comments, sent on behalf of the Department of the
Army, were generally responsive. However, comments to Recommendations C.2.b and C.2.c
were nonresponsive and comments on Recommendations A.l.a, A.l.e, A.l.f, A.I.g, A. I .h, A.I.i,
B.I.a, and C.2.a were partially responsive. We request additional comments from the Assistant
Secretary of the Army (Financial Management and Comptroller) and Army Office of Business
Transformation on the recommendations by June 28, 2012.

Ifpossible, send a portable document format (.pdf) file containing your comments to
audfmr@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the cOllitesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).


                                   ~ (\ . J~                               

                                   Richard B. Vasquez, CPA 

                               Acting Assistant Inspector General 

                              Financial Management and Reporting 

Report No. DODIG-2012-087 (Project No. D2010-D000FI-0234.000)                  May 29, 2012

               Results in Brief: Logistics Modernization
               Program System Procure-to-Pay Process Did Not
               Correct Material Weaknesses
                                                              manage, and maintain trading partner
   What We Did                                                information. As a result, the Army allotted
   Our objective was to determine whether                     about $1.3 million to develop vendor
   appropriate internal controls were in place                information for two systems but did not resolve
   within the Logistics Modernization Program                 material weaknesses related to accounts payable
   system (LMP) to ensure proper recording of                 and intragovernmental eliminations.
   accounting transactions related to the purchase
   of goods and services.                                     What We Recommend
                                                              The Deputy Chief Management Officer should
   What We Found                                              review legacy registration processes to
   Army financial and system managers did not                 determine whether DoD can incorporate registry
   reengineer LMP to perform Procure-to-Pay                   databases into the System for Award
   functions correctly or correct known material              Management. Other recommendations are:
   weaknesses. The LMP developers did not                         •	 develop a plan of action and milestones
   identify the system requirements needed to                        to bring the LMP into compliance with
   correct the root causes of material weaknesses,                   the DoD requirements,
   and Army managers did not review control                       •	 modify LMP to cease the automatic
   activities to assess internal control effectiveness.              obligation of unmatched disbursements,
   As a result, Army managers continued the use                   •	 review unobligated balances, and
   of costly business processes and LMP failed to                 •	 develop a system edit check to identify
   provide reliable financial data. As of                            activity exceeding allotted amounts.
   August 31, 2011, LMP activities reported more              The Army should also create and manage
   than $10.6 billion in abnormal balances within             vendor master data based on the System for
   the Procure-to-Pay general ledger accounts.                Award Management and establish a vendor
                                                              master data manager. Further, the Army should
   LMP system access controls did not establish               improve LMP system access controls and assess
   data integrity for the Procure-to-Pay process              the LMP Procure-to-Pay business process.
   because Army managers did not provide
   effective oversight over the development and               Management Comments and
   implementation of system access templates. As              Our Response
   a result, LMP data were at risk of unauthorized
   and fraudulent use. In addition, the Army                  The Deputy Chief Management Officer and
   Enterprise Systems Integration Program                     Department of the Army agreed with our
   Management Office did not determine the                    recommendations. However, some of the Army
   Standard Financial Information Structure data              comments were not responsive or did not fully
   attributes needed to establish the vendor master           address what actions it would take to correct the
   database and populate the correct domain values            reported deficiencies. Therefore, we request
   for Army systems to process Procure-to-Pay                 that the Army provide additional comments as
   transactions correctly. This occurred because              specified in the recommendations table on the
   Army managers did not create the single source             back of this page.
   of vendor master data needed to develop,
                                                          i
Report No. DODIG-2012-087 (Project No. D2010-D000FI-0234.000)            May 29, 2012


Recommendations Table
         Management                   Recommendations           No Additional Comments
                                     Requiring Comment                Required
Deputy Chief Management
Officer                                                         C.1
Assistant Secretary of the Army                                 A.1.b, A.1.c, A.1.d, A.2.a,
(Financial Management and         A.1.a, A.1.e, A.1.f, A.1.g,   A.2.b, A.2.c, A.3, B.1.b,
Comptroller)                      A.1.h, A.1.i, B.1.a, C.2.a,   B.1.c, B.1.d, B.1.e, B.1.f,
                                  C.2.b, C.2.c                  B.2.a, B.2.b, B.2.c, C.4
Director, Army Office of          A.1.a, A.1.e, A.1.f, A.1.g,
Business Transformation           A.1.h, A.1.i, C.2.a, C.2.b,
                                  C.2.c                         A.1.b, A.1.c, A.1.d
Program Manager, Army
Enterprise Systems Integration
Program                                                         C.3.a, C.3.b, C.3.c, C.3.d

Please provide comments by June 28, 2012.




                                             ii
Table of Contents
Introduction                                                                   1


      Objective                                                                1

      Material Weaknesses Related to Business Processes and Systems            1

      DoD Procure-to-Pay Process                                               1

      Review of Internal Controls Over the Business Process                    3


Finding A. Logistics Modernization Program Procure-to-Pay Reengineering

              Did Not Correct Known Weaknesses                                 4

      Army Procure-to-Pay Responsibilities                                     4

      Army Managers Did Not Implement the Business Enterprise Architecture

         Business Process                                                      5

      Developing an Effective Control Environment                              6

      Implementing Control Activities to Accomplish Procure-to-Pay

         Business Process                                                      8

      Ineffective Monitoring of the Army Procure-to-Pay Business Process      18 

      Conclusion                                                              19 

      Recommendations, Management Comments, and Our Response                  19 


Finding B. Logistics Modernization Program System Access Controls Were

             Ineffective                                                      26 

      System Compliance with Federal Information Security Management Act      26 

      Segregation of Duties and Least Privilege Controls                      27 

      Developing Consistent Account Management Policy and Procedures          31 

      Army Materiel Command Taking Actions to Update Account Management       35 

      Conclusion                                                              36 

      Recommendations, Management Comments, and Our Response                  37 


Finding C. Vendor Master Data Did Not Support the Procure-to-Pay Process      41

      Vendor Master Information Requirements                                  41 

      Developing a Single Army Vendor Master                                  43 

      Army Expended Funds to Develop Multiple Vendor Tables                   47 

      Developing a Way Forward                                                48 

      Conclusion                                                              48 

      Recommendations, Management Comments, and Our Response                  49 


Appendices
     A. Scope and Methodology                                                 54 

     B. Prior Coverage                                                        56 

     C. Description of Technical Requirements and Standards                   57 

     D. Acronyms and Abbreviations                                            60 

     E. Business Transformation Agency Procure-to-Pay Illustration            61 

     F. Segregation of Duties                                                 63 

     G. Statistical Sampling Methodology                                      66 

Table of Contents (cont’d)
Appendices (cont’d)
     H. 	Developing the Vendor Master Using Standard Financial Information 

            Structure Attributes                                               69 


Glossary	                                                                      71 


Management Comments

     Deputy Chief Management Officer                                           72 

     Department of the Army                                                    74 

Introduction
Objective
Our overall objective was to determine whether the appropriate internal controls were in place
within the Logistics Modernization Program system (LMP) to ensure the proper recording of
accounting transactions related to the purchase of goods and services. Specifically, we
determined the reasons for abnormal account balances 1 and transaction relationships and
determined whether LMP properly supported the accounting transactions within the general
ledger accounts with verifiable audit trails. This report assesses the Army’s implementation of
the DoD Business Enterprise Architecture (BEA) end-to-end business process for Procure-to-Pay
(P2P) in LMP. See Appendix A for a discussion of our scope and methodology and Appendix B
for prior audit coverage. See Appendix C for the description of technical requirements and
standards and Appendix D for acronyms and abbreviations. See the Glossary for definitions of
technical terms used in this report.

Material Weaknesses Related to Business Processes and
Systems
The Army has long-standing material weaknesses in the financial reporting of its Army Working
Capital Fund (AWCF) business operations. The Army did not design its legacy accounting
systems to collect and record financial information using accrual accounting or to maintain
auditable data at the transaction level to support the amounts reported on the AWCF financial
statements. In its FY 2010 Statement of Assurance, the Army reported 10 material weaknesses
related to its AWCF business processes and systems. The material weaknesses involving
accounts payable, abnormal balances (both discussed in Finding A), and intergovernmental
eliminations (discussed in Finding C) related directly to the P2P business process. These three
material weaknesses existed because of the inability of Army legacy systems to integrate the P2P
business process correctly and identify the proper trading partner information for Federal and
non-Federal transactions. Appendix C contains the definition of a material weakness and a
detailed description of the three material weaknesses. In the Army’s FY 2011 Statement of
Assurance, the Assistant Secretary of the Army (Financial Management and Comptroller)
(ASA[FM&C]) identified LMP deployment as the major corrective action for resolving these
three material weaknesses.

DoD Procure-to-Pay Process
The Deputy Chief Management Officer (DCMO) had overall responsibility for developing and
ensuring the implementation of the DoD BEA requirements. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer is responsible for ensuring that the Army complies with
financial reporting requirements.


1
 An abnormal balance occurs when the balance reported in a general ledger account is different from the expected
normal balance for that account as defined in the chart of accounts. For example, the normal balance for accounts
payable (GLAC 2110) is a credit balance. When the trial balance reports the value as a debit balance, the balance is
considered abnormal.


                                                         1

DoD developed the BEA to assist its components in developing the common end-to-end business
processes needed to report the financial and other data managers need for decision-making. The
BEA supports the move from a function-centered approach to one that looks at DoD business
functions across the enterprise from an end-to-end process perspective. BEA version 7.0,
released on March 12, 2010, introduced the end-to-end business flows to serve as the foundation
for a shared understanding of the target architecture. The BEA provided the business rules and
transactional information flows needed to develop Enterprise Resource Planning (ERP) system
solutions. The P2P business process was one of 15 BEA end-to-end business processes.
Additional details about the BEA P2P business process are in Appendix E.

DoD Responsibilities
The DCMO issued guidance on October 13, 2009, restating the Defense Business Systems
Management Committee’s commitment to explore the execution of the P2P end-to-end business
process entirely within the ERP systems to the maximum extent possible, using pilots programs.
The FY 2010 National Defense Authorization Act (the Act), Section 1072, introduced new
requirements into the Department’s investment review process. The Act stipulated that DoD
could not certify Defense business system modernization funds in excess of $1 million for
obligation without making a determination on whether or not DoD had conducted appropriate
business process reengineering of the system processes. To justify additional LMP funding, the
Act required the DCMO and the Army’s Chief Management Officer to make the reengineering
determinations.

The DCMO issued a memorandum dated February 12, 2010, implementing Section 1072 of the
Act. The memorandum required the completion of an interim Business Process Reengineering
Assessment Form by the Chief Management Officer of ERP systems coming to the DoD
Investment Review Board (the Board). In September 2010, the Board granted a third LMP
deployment decision, which included more than $37 million for the Army to continue
deployment and related support activities. The Board issued an Acquisition Decision
Memorandum dated November 18, 2010, acknowledging that the Army knew risks existed in the
system before deployment that must be mitigated in future software releases of LMP. The
Acquisition Decision Memorandum provided seven specific tasks that needed to occur, including
the requirement for Army managers to ensure that they executed all future capability upgrades in
accordance with an approved strategy for the emerging Army ERP systems.

Logistics Modernization Program System
In December 1999, the Program Director, U.S. Army Wholesale LMP, Army Materiel
Command (AMC), awarded a service contract to develop and deploy LMP to process logistical
and financial data in support of AWCF business operations and to maintain legacy systems until
full LMP deployment. The contractor used a commercial off-the-shelf software package to
develop the LMP financial management and logistics functionality. In July 2003, the LMP
Project Office initially deployed LMP to the CECOM Life Cycle Management Command
(LCMC), New Jersey; Tobyhanna Army Depot, Pennsylvania; Defense Finance and Accounting
Service (DFAS) locations in Indianapolis, Indiana, and Columbus, Ohio; and several other AMC
activities supporting the AWCF Supply Management business area. In May 2009, the LMP
Project Office completed its second deployment to an additional seven AMC locations, including
the Aviation and Missile Command LCMC, Alabama (the LCMC) and Letterkenny Army Depot


                                               2

Pennsylvania (the Depot) that we visited. The LMP Project Office completed deployment to the
remaining AWCF activities on October 21, 2010. During FY 2011, 28 AWCF activities used
LMP to report trial balance data. DoD Inspector General (DoD IG) Report No. D-2011-015,
“Insufficient Governance Over Logistics Modernization Program System Development,”
November 2, 2010, reported that LMP had not resolved any previously reported material
weaknesses, despite the Army spending more than $1.1 billion to develop and deploy the system.
As of July 2011, the Army spent about $1.8 billion on LMP. In December 2011, the Army
issued a contract modification for almost $1 billion to extend the existing contract until
December 2015.

Standards for Internal Control
Office of Management and Budget Circular No. A-123, “Management’s Responsibility for
Internal Control,” December 21, 2004, and Government Accountability Office (GAO)
“Standards for Internal Control in the Federal Government,” November 1999, identify the
standards and policies for achieving proper internal control. The circular provides Federal
managers with guidance to ensure that they establish effective internal control standards.
Management must also comply with the circular’s Appendix A, “Internal Control Over Financial
Reporting,” when assessing internal control effectiveness over financial reporting. Effective
internal controls provide management with reasonable assurance of effective and efficient
operations, reliable financial reporting, and compliance with laws and regulations. The five
standards of internal control are defined in Appendix C.

Review of Internal Controls Over the Business Process
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls that
provides reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses in the management and
implementation of the LMP P2P business process. Specifically, Army financial managers did
not properly reengineer AWCF business processes and implement internal control procedures for
conducting the LMP P2P business process, correctly administer LMP system access, or properly
develop the vendor master data needed to associate financial data to the correct trading partners.
We will provide a copy of the report to the senior officials responsible for internal controls in the
Department of Army.




                                                 3

Finding A. Logistics Modernization Program
Procure-to-Pay Reengineering Did Not Correct
Known Weaknesses
ASA(FM&C) and AMC managers developed LMP business processes to perform LMP P2P
functions that did not implement the DoD BEA requirements and correct known material
weaknesses. Specifically, the LMP processes developed did not properly approve, verify, or
reconcile P2P transactions or record and document business events accurately. This occurred
because the managers did not:

    •	 develop an effective control environment to identify the root causes of the material
       weaknesses related to the P2P business process, develop appropriate corrective actions,
       and reengineer the Army business processes and LMP system functionality to resolve the
       weaknesses;
    •	 establish the LMP control activities needed to accomplish the P2P business process
       requirements; and
    •	 monitor operations within the LMP P2P business process.

As a result, Army managers continued the use of costly legacy business processes and LMP
failed to provide reliable data to financial managers, which may impede an AWCF audit opinion
by FY 2017. As of August 31, 2011, LMP activities reported more than $10.6 billion in
abnormal balances within the accounts payable and budgetary general ledger accounts
supporting the P2P business process. LMP also continued to create and automatically obligate
unmatched disbursements, 2 requiring the Army and DFAS to expend additional funds and
resources to accomplish the manual reconciliation processes needed to post disbursements
correctly.

Army Procure-to-Pay Responsibilities
The Deputy Assistant Secretary of the Army (Financial Operations) reports to the ASA(FM&C)
and has responsibility for policies, procedures, programs, and systems pertaining to finance and
accounting activities and operations. The Deputy Assistant Secretary of the Army (Financial
Operations) also has responsibility for implementing Army financial management systems, data
integration, and the Army internal control program. ASA(FM&C) had responsibilities for
ensuring that LMP, as the AWCF’s ERP system, correctly implemented these business flows
before allowing the LMP Project Manager to fully deploy the system. As reported in DoD IG
Report No. D-2011-015, the ASA(FM&C) was not sufficiently involved in LMP development
and did not identify LMP financial management problems that required immediate corrective
actions before LMP full deployment. Specifically, AMC personnel developed a majority of the
requirements for the LMP P2P business process.




2
 An unmatched disbursement is a disbursement transaction that has been received and accepted by an accounting
office, but has not been matched to the correct detail obligation. This includes transactions that have been rejected
and returned back to the paying office or central disbursement clearing organization by an accounting office.


                                                          4

On February 5, 2010, the Secretary of the Army signed General Order 2010-01, establishing the
Army Office of Business Transformation (OBT). The order stated that the Army had originally
established the Army OBT by memorandum on April 9, 2009. The Army OBT acts under the
authority, direction, and control of the Secretary of the Army; reports directly to the Army Chief
Management Officer; and is the lead for business transformation efforts Army-wide. Both the
OBT and ASA(FM&C) now share the responsibility for ensuring that LMP activities implement
the appropriate internal control over the financial business processes.

Army Managers Did Not Implement the Business Enterprise
Architecture Business Process
The Army Director, OBT; ASA(FM&C); and AMC financial and system managers (hereafter
referred to collectively as Army managers) did not develop an LMP P2P business process that
complied with DoD BEA requirements. The BEA required that an ERP system demonstrate its
adherence to the 15 BEA business processes and related business rules as well as DoD Financial
Management Improvement Guidance, Federal accounting standards, and applicable public laws
such as the Federal Financial Manager’s Integrity Act of 1996, regulations, and policies
governing the business process. Specifically, systems must comply with the Federal Financial
Management System Requirements as required by Office of Management and Budget Circular
No. A-127, “Financial Management Systems,” January 9, 2009, and the Financial System
Integration Office’s Core Financial System Requirements.

When the Army initially deployed LMP in July 2003, the 15 BEA business processes had not
been identified. In FY 2005, the Business Transformation Agency (BTA) began developing the
BEA P2P business process. ASA(FM&C) and AMC managers developing LMP had not
                                                assessed what impact emerging BEA
      ASA(FM&C) and AMC managers                requirements had on further LMP deployment.
    developing LMP had not assessed what        They also did not determine whether they
  impact emerging BEA requirements had on       needed to delay deployment and ensure that
          further LMP deployment.               they conducted the appropriate business process
reengineering needed to integrate the LMP P2P business process at full deployment. As a result,
they did not provide the LMP Project Office with the correct requirements needed to develop the
LMP functionality needed to meet the requirements of the BEA P2P business process. Instead,
Army managers made the decision to delay business process reengineering until after LMP had
deployed and sought the Board’s approval to continue deployment in September 2010. The
Board decided to allow the Army to fully deploy LMP without first ensuring that the Army
managers had reengineered LMP P2P business process to resolve the material weaknesses that
had existed in the legacy environment.

Army OBT and ASA(FM&C) managers did not take advantage of the Defense Business Systems
Management Committee’s commitment to explore the execution of the P2P business process
within LMP. They did not direct the LMP Project Office to reengineer the legacy environment
to the extent necessary to develop a LMP P2P business process that would ensure the appropriate
AWCF personnel approved, verified, or reconciled P2P transactions and recorded and
documented the financial transactions and business events accurately. The legacy environment
that these Army managers largely perpetuated within LMP consisted of multiple nonintegrated
systems performing specific functions within the P2P business process. Appendix E compares


                                                5
the BEA requirements for the P2P business process to the “as is” environment for obtaining
goods and services. Figure 1 shows the P2P business flow related to the six phases of the BEA
P2P business process: Requisitioning and Commitments (Execute Requisition), Contracting and
Obligations (Source Goods and Services, Manage Contract, and Execute Purchase), Goods
Receipt (Perform Receipt, Acceptance and Return), Invoicing (Process Invoice and Match),
Entitlement (Process Invoice and Match), and Disbursing (Execute Disbursement).

        Figure 1. Business Enterprise Architecture, Version 7.0, P2P Business Flow




Source: DoD BEA, Version 7.0

Developing an Effective Control Environment
Army managers did not develop an effective control environment to identify the root causes of
the material weaknesses related to the P2P business process, develop appropriate corrective
actions, and reengineer the Army business processes. This prevented the LMP Project Office
from designing the final LMP business process correctly by taking advantage of the inherent
capabilities contained in the commercial software for accomplishing the P2P business process.
Army managers also did not analyze the root causes for known material weaknesses within the
current P2P business process to design and implement the corrective actions needed to resolve
the weaknesses. Consequently, they instructed the LMP Project Office to configure LMP to
perpetuate AMC legacy business processes. This configuration resulted in a non-integrated P2P
business process that could not resolve the material weaknesses related to accounts payable,
abnormal account balances, and intragovernmental eliminations.

Control Environment Resulted in Additional Costs to Maintain Legacy
Systems and Processes
ASA(FM&C) did not ensure that AMC personnel designed LMP requirements that would
implement the commercial software’s full P2P capabilities. Therefore, AMC personnel did not
reengineer LMP to provide the integration required to perform all phases of the P2P business
process. Soon after the July 2003 LMP deployment, Army managers should have assessed its
business operations, identified all existing P2P business processes and systems used in the legacy
environment and the commercial software capabilities to accomplish these business processes,
and developed a reengineering plan to integrate these processes within LMP. If ASA(FM&C)




                                                6

had instructed the LMP program managers to reengineer the LMP P2P business process, then
DFAS and LMP activities could have discontinued the use of costly legacy business processes
and systems to accomplish the P2P business process. For example:

    •	 At the Depot, personnel continued to use the Aquiline system to create purchase requests
       to solicit and award service contracts. Aquiline is a commercial Purchase Request
       software tool used by AMC contracting activities. Resource managers entered a purchase
       request in Aquiline before the requisition information was manually entered into LMP
       because LMP lacked the internal controls and functionality needed for online approval
       and funds certification. The Army did not integrate the Aquiline system into LMP or any
       other financial management system. The Army planned to retire the Aquiline system
       after the Army deployed both LMP and the Army General Fund Enterprise Business
       System (GFEBS). In July 2011, the Army extended the use of Aquiline with the
       potential additional cost of $1.1 million for its use during FY 2012. As an integrated
       ERP system, LMP should have assumed the entire purchase requisition phase and
       eliminated the need for use of this legacy system. Depot personnel stated that they
       continued to use this system because LMP did not provide the resource managers with
       the ability to maintain proper funds certification and approval authority over purchase
       requests for services.

    •	 ASA(FM&C) did not require AMC to reengineer the entitlement process and continued
       to require separate systems to entitle and disburse P2P transactions. Army managers
       informed us that during LMP development, DoD management instructed them not to
       reengineer the entitlement process because the replacement system for the Computerized
       Accounts Payable System and the Mechanization of Contract Administration Services
       system would subsume this functionality. However, in FY 2003, when DoD cancelled
       plans for the replacement system, ASA(FM&C) did not require AMC to reassess the
       requirements needed to integrate the entitlement process. Because Army managers did
       not reengineer the business process, they could not eliminate the prevalidation process
       designed to match proposed disbursements to actual obligations and eliminate unmatched
       disbursements. 3 By not reengineering the P2P business process, DoD must continue to
       operate and maintain stand-alone entitlement systems, such as the Computerized
       Accounts Payable System and the Mechanization of Contract Administration Services
       system, which LMP should have incorporated for AWCF activities. Integrating the
       entitlement process would also have eliminated the AWCF’s portion of the more than
       50 full-time equivalent DFAS positions charged to the Army by DFAS in FY 2010 to
       accomplish prevalidation and resolve unmatched disbursements.

The Army Director, OBT, issued the “Army Business Systems Information Technology
Strategy,” (Army ERP Strategy) on February 14, 2011. The Army ERP Strategy requires Army
ERP program managers to assess current business operations and develop a plan to reengineer


3
  Prevalidation is the matching of an invoice and receiving report to the corresponding obligation recorded in LMP.
It is required by public law and is a process that would be inherent in a fully integrated ERP environment because
the same system performs the accounting and the entitlement functions.



                                                         7

the P2P business process. 4 Opportunities exist to integrate more functionality within LMP that
                                                      would improve the control environment and
        Opportunities exist to integrate more         make operations more efficient. For
   functionality within LMP that would improve        example, the Army ERP Strategy should
   the control environment and make operations        detail how LMP personnel can configure
                   more efficient.                    the commercial software’s functionality to
                                                      perform the nonintegrated aspects of the
P2P process, such as the contracting, commercial pay entitlement, and disbursement functions, to
the maximum extent practical. In developing the Army ERP Strategy, Army managers should
directly oversee all future development of LMP system requirements and develop a plan of
action and milestones that will reengineer and integrate LMP to comply with the BEA P2P
business process. This should include integrating to the maximum extent possible all phases of
the P2P business process.

Implementing Control Activities to Accomplish Procure-to-
Pay Business Process
Army managers did not establish the control activities needed to ensure that the P2P business
process complied with financial reporting requirements. The Army had not correctly developed
the following control activities to ensure proper implementation of the LMP P2P business
process:
    • top level functional and activity reviews of actual performance,
    • performance measures and indicators, and
    • proper execution of transactions and events.
Finding B addresses the control activities needed to assess segregation of duties and least
privilege conflicts as well as restrict access to records and resources. Finding C addresses the
need to provide Army ERP systems with accurate vendor master data.

Army Managers Not Performing Functional and Activity-Level
Reviews of Actual Performance
Army managers did not conduct sufficient functional and activity-level reviews to assess the
actual performance of the LMP P2P business process. Internal control standards require
managers to compare actual performance to planned or expected results and conduct the analysis
to correct significant differences. Although Army managers identified that abnormal account
balances occurred in the eight accounts payable General Ledger Account Codes (GLACs) since
the initial LMP deployment in FY 2003, they had not fully identified the reasons for the
abnormal conditions. Consequently, they had not resolved this material weakness before full
LMP deployment. 5 The 28 LMP activities reported more than $10.6 billion in abnormal


4
  The Army is also testing a pilot program within GFEBS to transition to an integrated entitlement process. We plan
to assess the Army ERP Strategy as a separate audit.
5
 The 28 LMP activities report information in 14 general ledger accounts, 2 supporting accounts payable Federal and
Non-Federal transactions, and 12 supporting budgetary information. Each account had several sub accounts that
made up the value reported for the general ledger account. Each sub account had a designated normal debit or credit
balance.


                                                        8

balances within 124 of 392 accounts payable and budgetary general ledger accounts that
supported the P2P business process as of August 31, 2011. Figure 2 shows that the cumulative
abnormal balances in the eight accounts payable general ledger sub accounts (GLAC
2110.XXXX) have significantly increased since September 2008 in the two AWCF business
areas (Supply Management and Industrial Operations) as additional activities began using LMP. 6

                      Figure 2. Abnormal Balances Reported in GLAC 2110
                                          (millions)




Source: LMP Trial Balance Data

The decision not to integrate the entitlement process into LMP was a significant reason for the
abnormal balances in accounts payable. The lack of integration prevented LMP from recording
the receipt and acceptance of goods before it recorded the payment transactions received from
the disbursement system. LMP did not record the original accounts payable transaction at the
time the Government actually accepted the goods at shipping points because the process sent the
actual receipt documentation to the entitlement systems. Figure 3 shows the LMP accounting
entry that should have occurred upon receipt of goods.

                 Figure 3. Accounting Entry to Post Goods Receipt Transaction
Debit - GLAC for specific asset or expense
   Credit - Accounts Payable - Goods Receipt/Invoice Receipt,
        Federal/Non-Federal (GLAC 2110.1000/2000)
Source: Auditor Derived from SFIS Posting Logic




6
  Figure 2 uses the following general ledger sub accounts to make up Federal and Non-Federal Accounts Payable:
Goods Receipt/Invoice Receipt Accounts Payable (Federal), GLAC 2110.1000; Goods Receipt/Invoice Receipt
Accounts Payable (Non-Federal), GLAC 2110.2000; Accounts Payable – In-Transit, GLAC 2110.5000; Accounts
Payable-Inventory Consignment Liability, GLAC 2100.6000; Accounts Payable (Federal), GLAC 2110.9100; and
Account Payable (Non-Federal), GLAC 2100.9200. In FY 2011, the LMP Project Office added GLAC 2110.7100
and GLAC 2100.7200 to enable DFAS to enter a journal voucher at month end to create an accrual for constructive
receipt of goods, which removes a portion of the abnormal balances.


                                                       9

When LMP received a disbursement transaction, the system posted an invoice receipt that moved
the amount recorded as an accounts payable between accounts payable GLACs and then posted
the actual disbursement to liquidate the accounts payable. Figure 4 shows the two accounting
entries recorded when LMP posted disbursement transactions.

     Figure 4. LMP Accounting Entries to Post Invoice and Disbursement Transactions
Debit - GLAC 2110.1000/2000
   Credit - Accounts Payable - Federal/Non-Federal (GLAC 2110.9100/9200)
Purpose: To post invoice receipt.

Debit - GLAC 2110.9100/9200
   Credit - Funds Balance With Treasury (GLAC 1010)
Purpose: To post disbursement.
Source: Auditor Derived from LMP Posting Logic

The LMP posting logic for receipt of goods resulted in an abnormal debit balance in
GLAC 2110.1000/2000. This abnormal balance remained until LMP personnel posted the actual
receiving report, indicating receipt and acceptance of goods in LMP for the disbursement
previously posted. Although Army managers and LMP Project Office personnel recognized this
problem, they stated that commercial software would not allow them to record goods acceptance
until after the goods actually arrived at a depot or supply management activity. They also stated
that LMP could not use specific inventory movement codes that controlled in-transit inventory
because the Army configured LMP to handle other inventory functions, which precluded the use
of those codes. 7 They did not believe that commercial software developers would make the
needed change to the software simply to support LMP. However, in March 2011, after we
discussed with them the goods acceptance problem, the LMP Project Office requested a change
to the commercial software and the company agreed to test a proposed solution in early FY 2012.
If the Army had identified and corrected this system problem before full system deployment,
ACWF abnormal accounts payable balances would not have grown to nearly $1.1 billion
(Figure 2).

In addition, as of August 31, 2011, budgetary accounts supporting the P2P business process
contained more than $9.5 billion in abnormal balances. The Army OBT and ASA(FM&C)
should expedite the solution for resolving the posting of in-transit inventory. Once resolved,
they should assess the system’s business flow and posting logic for the accounts payable process
and determine whether additional problems exist that cause abnormal balances related to the
LMP P2P process. If additional problems exist, they should develop the corrective actions to
address them.



7
  Inventory-in-transit is material in transit from commercial and government suppliers, whose title has passed to
DoD, but has not been received and accepted at the final designated destination. Movement type 107 is used at the
time of acceptance. This should create the necessary proprietary (GLACs 1510/2110) and budgetary
(GLACs 4801/4901) postings. However, the accepted quantity will not be available for any logistical activity until
an individual creates a Goods Receipt for the material using movement type 109. Movement type 109 will release
the received quantity into unrestricted stock. This Goods Receipt transaction creates no financial postings.


                                                        10

Army Did Not Use Performance Measures and Indicators to Assessing
Logistics Modernization Program System Performance
Army managers did not effectively use performance measures and indicators to assess the LMP
data provided for their use. Internal control standards require that activities establish and
monitor performance measures and indicators, including comparisons and functional reviews
relating different sets of data to one another to make needed analyses of the relationships and
develop appropriate corrective actions. Although Army managers had established some
performance measures and indicators, they did not develop performance measures to monitor the
status of the LMP Unobligated Authority for potential violations of the Antideficiency Act.
Table 1 shows that the three LMP general ledger accounts used to report unobligated authority
indicated the Supply Management activities had exceeded their cumulative unobligation
authority by about $5.6 billion as of August 31, 2011. The table identifies the 11 Supply
Management activities that had abnormal unobligated balances.

                   Table 1. Review of Unobligated Authority August 31, 2011
                                          (millions)
   LIMIT          Unapportioned          Allotments          Commitments          Total Unobligated
                    Authority            GLAC 4610            GLAC 4700               Authority
                   GLAC 4450
AC50                        $104.6                  $0.0                  $0.0                 $104.6
AC5A                        1,451.7              (126.6)                   0.0                1,325.1
AC5D                         474.0                (50.2)                  (7.1)                 416.7
AC5E                        2,068.5               (42.7)                   0.0                2,025.8
AC5F                         189.1                 (5.1)                  (1.0)                 183.1
AC5T                         635.6                (14.8)                  (5.2)                 615.5
AC63                         196.0                 (6.9)                 (26.8)                 162.3
AC67                         312.5                 (1.2)                   0.0                  311.3
AC68                            0.0                   0.0                  0.0                    0.0
AC6E                        (431.1)               (14.9)                  (1.8)               (447.7)
AC9C                        1,110.2               (15.2)               (150.8)                  952.2
AC9D                         573.7                 448.0               (560.7)                  461.0
AC9E                        (244.3)               (59.5)                 (49.4)               (353.2)
AC9F                        (160.4)               (22.0)                 (13.7)                (196.1
AC9G                           16.6                (0.5)                   0.0                   16.0
 Total                      $6,296.9                $88.4                $(816.7)                $5,568.6
*The four-character limit represents the Supply Management activity and the shaded areas reflect an abnormal
account balance. For example, AC50 represents the U.S. Army Materiel Command Logistical Operations. AC50
had an abnormal account balance of $104.6 million in both Unapportioned Authority (GLAC 4450) and Total
Unobligated Authority.

Army Budget Office personnel stated that it was unlikely that the Supply Management activities
had exceeded their obligation authority because they suspected that the LMP posting logic for
three general ledger accounts, GLACs 4450, 4610, and 4700, was incorrect and caused LMP to
report abnormal balances. They also stated that the abnormal balances reported in GLAC 4450


                                                      11

were incorrect balances brought forward from legacy systems that they planned to address once
they fully identified and implemented the business process flows and accounting requirements
for reporting contract authority within LMP. However, it was not until we questioned these
accounts that Army managers took any actions to assess these abnormal accounts. Army Budget
Office personnel did not believe an Antideficiency Act violation had occurred because their
other reports showed sufficient balances in unobligated authority. However, LMP also indicated
that the $448 million abnormal (debit) balance in GLAC 4610, “Allotments,” at one activity
(AC9D) resulted in the LMP trial balance reporting that the Supply Management business area
exceeded its FY 2011 allotment authority by $88.4 million.

Army OBT and ASA(FM&C) should direct AMC financial managers to develop performance
indicators to assist them in identifying activities exceeding their obligation or allotment
authority. ASA(FM&C) should work with AMC to conduct a review of the LMP unobligated
authority balances, determine whether a potential Antideficiency Act violation has occurred, and
take actions to correct the LMP abnormal balances and posting logic problems. They should also
develop a system edit check that identifies when an activity exceeds the allotment authority in
GLAC 4610 and require activities to report each occurrence to the Office of ASA(FM&C) for
immediate resolution.

Properly Executing Business Transactions and Events
LMP did not execute each phase of the P2P business process properly. The P2P business
process required the assignment of specific accounting entries to record business transactions to
the GLACs. As stated in DoD IG Report No. D-2011-015, Army managers could not provide
the detailed posting logic used for each financial event. Without this information, Army
managers had limited assurance that LMP could properly execute P2P transactions and events.
Internal control standards state that proper documentation of posting logic is essential to ensuring
that the proper execution of transactions occurred. Both AWCF activities reviewed had
problems with the execution of the business transactions and events related to the Requisitioning
and Commitments Phase and the Contracting and Obligations Phase of the LMP P2P business
process. Without automated system controls, unauthorized persons could submit or change
transactions and accomplish business events outside the scope of their authority. As a result,
data from LMP are subjected to an increased vulnerability for individuals to create and process
fraudulent transactions. Instituting automated system controls is the principal means of ensuring
that the Army only initiates or enters valid transactions.

Logistics Modernization Program System Did Not Implement the
Requisitioning and Commitments Phase Effectively
Army managers did not sufficiently assess the Requisitioning and Commitments Phase at AWCF
activities and design the LMP functionality needed to create and process all requisitions and
commitments used by AWCF activities. This phase requires an individual to create a purchase
request (requisition) and establish a commitment of funds to record in the accounting records. At
the two AWCF activities we visited:

   •	 LMP did not have the proper functionality to create purchase requests related to service
      contracts and credit card transactions. Instead, activity personnel continued to use offline



                                                12

       systems and processes to create purchase requests and entered a manual commitment
       transaction within LMP to track the purchase request using the LMP transaction screen
       FMY1 (Create Funds Commitment).

   •	 LMP did not restrict purchase request functions, such as purchase request approvals,
      document releases, and waiving ordering limits, to only those high-level managers
      required to perform the actions. For example, LCMC users performed a manual process
      to obtain higher management approvals for purchase requests because LMP did not
      automatically route purchase requests to high-level managers for approval. Army
      managers also did not implement the system controls needed to restrict the release of
      purchase requests to the proper approval authority.

   •	 More than 1,300 of the 3,514 users had system access that permitted them to create,
      change, and release a purchase request for any dollar amount without approval from a
      higher level of authority. Internal control standards state that the individual requesting
      items should not also approve that request. LMP needs to be able to provide the ability to
      track approval events online by transaction and approval level, including the date, time,
      and signature of the approving authority (see Finding B).

   •	 LMP lacked the system controls to route purchase requests to resource management
      personnel to formally record fund certification. The BEA business rules required the
      certification of funds availability by the comptroller or an individual responsible for the
      funds to ensure obligations would not exceed available funds. LMP allowed any
      individual with authority to create a purchase request to fund the request based on
      entering a code other than “U” in the Account Assignment Category before releasing the
      document to the contracting office. Personnel at the two activities stated that individuals
      releasing purchase requests could also cite other activities’ funds unintentionally. The
      Depot provided a recent example of Corpus Christi Army Depot citing the Depot’s funds
      by incorrectly entering the wrong Plant Number into LMP. As a result, Corpus Christi
      Army Depot erroneously committed $8,253 in Depot funds. The Depot and Corpus
      Christi Army Depot worked together to correct the error.

To ensure proper funds control, only the individual responsible for the obligation authority
provided to an AWCF activity, or a limited number of individuals appointed by that individual to
certify funds, should be able to fund purchase requests. This certification requires the use of an
electronic signature that controls the certified document and provides the contracting officer or
obligating official the legal authority to use the funding.

In addition, the two AWCF activities visited committed funds at different points during the
phase. For example, the Depot committed funding upon release of the purchase request for
obligation actions and the LCMC did not commit funding until notified by the contracting office
that a contract was ready for obligation actions. LMP users at the LCMC continued to follow the
legacy policy and prepared unfunded purchase requests. AMC managers stated that this
occurred in order to prioritize the use of funds because many of the procurements had long
administrative lead times. DoD Financial Management Regulation 7000.14-R (DoD FMR),
volume 14, chapter 1, “Administrative Control of Funds,” January 2009, requires that proper


                                               13

funding be available prior to initiating contracting or other obligation actions. Therefore,
personnel should commit funds at the time they release purchase requests for action by others.
By not committing the funds upon release of a purchase request, DoD is at risk of accomplishing
costly contracting actions and not having funds available to obligate the contract at the time of
award.

The Army OBT and ASA(FM&C) should direct AMC to develop the functionality to provide for
proper document flow for approval of purchase requests within LMP. They should also direct
AMC to evaluate the P2P business process to identify all offline systems and procedures that
activities use to accomplish the Requisitioning and Commitments Phase outside of the ERP
system and, to the extent possible, incorporate that functionality into LMP and discontinue the
use of the other processes. In situations where Army managers cannot immediately incorporate
the functionality into LMP, they should develop compensating controls over non-integrated
offline processes and restrict the creation of manual commitment transactions to resource
management personnel. They should also restrict an individual’s ability to use fund codes and
approve transactions to only the individual’s LMP activity. The Army OBT and ASA(FM&C)
should also direct AMC to assign funds certification authority to a limited number of individuals
and develop the requirement for LMP to limit funds certification to only these individuals. In
addition, they should direct that fund managers establish commitments for purchase requests at
the time of release.

Limited Reengineering of the Contracting and Obligations Phase
Army managers did not sufficiently reengineer the Contracting and Obligations Phase of the P2P
business process to ensure that LMP controlled obligation transactions without the need for
locally developed manual processes. Army managers relied on interfaces they developed with
existing contracting systems such as the Standard Procurement System and Procurement
Automated Data and Document System to develop the obligations based on the contracting
actions those systems accomplished. However, LMP did not provide the online capability for
       . . . LMP did not provide the online         individuals to accomplish Military
     capability for individuals to accomplish       Interdepartmental Purchase Request (MIPR)
      Military Interdepartmental Purchase           acceptance functions. Instead, the requesting
      Request (MIPR) acceptance functions.          activity had to print and manually sign a
                                                    hardcopy MIPR document and send it to the
performing activity. The performing activity manually accepted the MIPR and sent it back to the
requesting activity. LMP then allowed the individual who created the MIPR at the requesting
activity to record the actual acceptance by the performing activity and establish the obligation.
This partially automated process provided only limited control over the obligation process and is
prone to error. The use of manual processes prevented the Army managers from realizing the
integration advantages LMP could have provided by systematically controlling the MIPR request
and acceptance process.

In addition, the LMP Program Activity Table used by the requesting activity contained invalid
address information for the performing activities and did not generate an accurate hardcopy
MIPR for mailing purposes. LCMC personnel showed us that the LMP Program Activity Table
was incomplete and required them to prepare a manual MIPR document for submission to the
receiving activity for acceptance. The Army OBT and ASA(FM&C) should direct AMC to


                                               14

evaluate the P2P business process to identify the offline systems and procedures within the
Contracting and Obligations Phase, develop plans for incorporating these functions and
integrating the acceptance functionality into LMP, and discontinue the use of manual obligation
processes once the integration into LMP is complete. In addition, they should direct AMC to
ensure that the data contained in the Program Activity Table can be used to prepare manual
documents correctly and develop compensating controls to validate the data integrity of
manually created obligation transactions.

Goods Receipt and Invoicing Phases Not Properly Reengineered
Army managers did not reengineer the AWCF business process to correctly record accounting
transactions within the Goods Receipt and Invoicing Phases. The Army decided to continue
using legacy entitlement systems to accomplish these phases instead of incorporating them into
LMP. Consequently, Army managers did not design LMP to receive invoices directly from
contractors and vendors or receiving reports from activities authorized to accept goods on behalf
of the government. Instead, the Wide Area Workflow system only provided these automated
documents to the entitlement systems, which eventually provided LMP with payment
transactions. When DoD receiving activities accepted supply items at the shipping point, the
Army delayed the recording of the receipt and acceptance data in LMP until these items actually
arrived at the receiving dock. In these situations, LMP did not record the associated accounting
transactions for government acceptance of goods correctly because AMC personnel developed
incorrect posting logic to record these transactions.

The LMP process contributed to the creation of abnormal balances in the accounts payable and
associated general ledger accounts. For example, when LMP received a payment transaction
from an entitlement system before properly recording the government receipt and acceptance of
the goods, it erroneously treated these transactions as if they were a prepayment of an
undelivered order. LMP recorded the transaction by crediting “Undelivered Orders-Paid”
(GLAC 4802) in the budgetary accounts, but incorrectly debited GLAC 2110 in the proprietary
account instead of “Advances and Prepayments” (GLAC 1410) to reflect payment of a prepaid
undelivered order. This created abnormal account relationships and abnormal balances in the
accounts. LMP should have posted the receipt and acceptance of the goods since the entitlement
system had already properly matched the obligations to a valid invoice and receiving report using
the prevalidation process.

Beginning in April 2011, the Army approved a departmental-level journal voucher that posts the
correct LMP accounts and serves as a temporary fix until the Army managers can implement the
software changes needed to record in-transit inventory movements correctly. The posting logic
discussion on pages 9 and 10 explains the significance of LMP not recording the receiving data
at the time of acceptance.

Although LMP could identify the transactions that comprised the unadjusted trial balance and the
information we obtained from DFAS personnel supported an audit trail, LMP did not accurately
record the source documentation information for transactions recorded during the Goods Receipt
and Invoicing Phases. Internal control standards require the accurate recording of transactions to
maintain their relevance and value to management in controlling operations and making
decisions. We selected a random stratified sample of 120 P2P transactions recorded as


                                               15

“Delivered Orders-Obligations Paid” (GLAC 4902) made during November 2010 and attempted
to track the information recorded in LMP to the source documents that activities and vendors had
provided to the entitlement systems. We were able to trace the dollar value of the transactions
recorded in GLAC 4902 from the unadjusted trial balances of each of the 29 LMP activities to
the total dollar value of disbursement transactions recorded in LMP. For each of the randomly
selected P2P transactions, based on the document voucher number found in LMP, we requested
the voucher, vendor invoice, and receiving report from DFAS Columbus. DFAS Columbus
personnel provided supporting documents for 96 of the 120 transactions. 8 Supporting documents
for the 96 transactions presented the following deficiencies:

    •	 LMP did not record the actual invoice number from the vendor. The Core Financial
       System Requirements state that systems must provide automated functionality to capture
       invoice data, including the vendor invoice number.

    •	 LMP did not correctly record invoice dates, invoice receipt dates, receipt dates, or
       acceptance dates as reflected on the source documents. The dates recorded in LMP
       usually reflected the dates LMP interfaced with the entitlement system.

    •	 The pertinent LMP invoice and receiving report transaction screens did not identify the
       disbursement voucher information. Because more than one disbursement typically
       liquidated an obligation, LMP needed to link the various invoices and receiving reports to
       the corresponding disbursement voucher.

The absence of actual invoice numbers, accurate dates, and disbursement voucher information
prevented activities from using LMP to detect duplicate payments and validate that payments
                                                   complied with the Prompt Payment Act. In
     The absence of actual invoice numbers,        addition, the incorrect data did not allow us to
    accurate dates, and disbursement voucher       evaluate the validity of the data LMP used to
   information prevented activities from using     approve prevalidation requests. LMP did not
      LMP to detect duplicate payments and         have a standard query to identify all the
    validate that payments complied with the       documents related to a P2P transaction. The
               Prompt Payment Act.	                Core Financial System Requirements state that
                                                   systems must provide the capability to
perform a query that would list all related documents and transactions in the processing chain for
document referencing and audit trail purposes. The Army OBT and ASA(FM&C) should direct
AMC to develop functionality in LMP to capture and record the vendor invoice date, vendor
invoice number, and date of invoice receipt at the paying station. Army managers
should direct the LMP Project Office to develop the data fields needed to record the actual
receipt and acceptance dates for goods and services and a query that will identify all documents
related to an LMP P2P transaction.




8
 The remaining 24 transactions represented inter-AWCF transactions and material movements. It appeared proper
for activities to record the types of transactions in this account. However, because there were no source documents,
such as disbursement vouchers, vendor invoices, or receiving reports, we excluded them for our review.


                                                         16

Army Managers Did Not Integrate Entitlement and Disbursement Phases
LMP did not use the commercial software functionality for entitling and disbursing P2P
transactions because Army managers used legacy entitlement and disbursement processes to
perform the ready-to-pay functions using the Wide Area Workflow system and existing
entitlement systems. They informed us that they would continue to use those processes until
DoD decided how to replace the legacy entitlement systems. As a result, the Army and DFAS
had to develop interfaces within LMP to prevalidate commercial payments. The entitlement
process integration would have eliminated the need for a separate prevalidation system and
would reduce the need for some of the 50 full-time equivalent DFAS positions and prevalidating,
disbursing, and resolving unmatched disbursement for the Army in FY 2010.

Prevalidation processing in LMP did not result in the recording of the proper accounts payable
and ready-to-pay transactions. 9 Although LMP recorded the invoice and the required budgetary
accounting entry upon receiving a prevalidation request, it did not determine whether the LMP
activity had previously recorded a receiving report and the associated accounts payable
transaction. LMP Project Office personnel stated that LMP tracked prevalidation requests using
the Authorization Reference Number provided by the prevalidation module, but LMP did not
record the approval of these prevalidation requests as “Disbursements In-transit” (GLAC 2120)
to recognize that LMP had approved the account payable transaction for payment. As a result,
LMP did not create the ready-to-pay transaction file required by the U.S. Government Standard
General Ledger to reconcile to the disbursement transaction file once received. ASA(FM&C)
should develop a plan to implement the functionality in LMP to record the receipt and
acceptance of goods and services, receipt of the invoice requesting payment, and allow LMP to
perform the appropriate obligation matches as required by the Core Financial System
Requirements.

Because disbursement transaction files did not identify the prevalidation requests approved for
disbursement by Authorization Reference Number, LMP could not reconcile the transactions and
had difficulty posting disbursement transactions to matching detailed obligations, creating
unmatched disbursements. Examination of the more than 83,000 disbursements made in
November 2010, determined that LMP posted unmatched disbursements for 8,244 transactions,
valued at about $339.5 million. A duplicate obligation (“ZK” transaction) was created for each
unmatched disbursement transaction it received. 10

LMP automatically created a “ZK” transaction without accounting office personnel first
performing the research required by DoD FMR, volume 3, chapter 11, “Unmatched
Disbursements, Negative Unliquidated Obligations, and In Transit Disbursements,”
November 2010, to determine whether a matching obligation existed. The creation of each “ZK”
transaction required LMP users to record at least two additional LMP transactions once they


9
  Ready-to-pay means that the proper three-way match between the obligation, invoice, and receipt occurred and an
individual certified the payment as ready for transmission to a payment office for action.
10
  A “ZK” transaction is a potential duplicative obligation established in LMP that matches disbursement received
from a payment office for which a matching obligation can be readily identified. The “ZK” transaction remains in
LMP until manual research identifies the original obligation.


                                                       17

identified the correct obligation, one transaction to reverse the “ZK” transaction and another to
post the disbursement to the correct obligation. LMP erroneously recorded the unmatched
disbursement transactions as a contract expense and cited funds from the associated LMP
                                                        activities’ allotment account (GLAC 4610)
     LMP erroneously recorded the unmatched             for these pseudo obligations. The LMP
      disbursement transactions as a contract           activities reversed the pseudo obligations
    expense and cited funds from the associated         once they identified the matching
         LMP activities’ allotment account              obligations, which took from 1 day to more
    (GLAC 4610) for these pseudo obligations.           than 1 year. An obligation previously
                                                        existed in LMP for each of the 43 randomly
selected unmatched disbursement transactions recorded in the November 2010 disbursement file
we selected for review. Dual posting of obligations reduced the availability of funds and could
cause the Army to exceed its annual obligation authority and incur a potential violation of the
Antideficiency Act.

As discussed previously, LMP contained no system controls or edit checks that would alert
Army managers when LMP activities attempt to process transactions that will cause the over
expenditure of their allotted obligation authority. ASA(FM&C) should direct AMC G-8 to
develop the requirements in LMP to create a ready-to-pay file based on the LMP approval of
prevalidation requests. ASA(FM&C) and AMC personnel should stop allowing LMP to create a
temporary obligation automatically for each disbursement it cannot match to a detailed
obligation. LMP should record these transactions as unmatched disbursements and
ASA(FM&C) should require accounting activities to perform the research required to determine
whether they can identify the correct detailed obligation. If one exists, they should post the
disbursement to that obligation and, if not, they should take immediate actions to record the
obligation.

Ineffective Monitoring of the Army Procure-to-Pay Business
Process
Army managers did not ensure that LMP activities and AMC managers monitored operations
within the LMP P2P process. AMC managers did not revise quality assurance evaluations used
in the legacy environment to assess controls implemented in the ERP environment. Evaluations
of internal controls performed at the two activities relied on checklists developed before the
implementation of LMP. Consequently, these activity personnel did not adequately assess the
LMP system controls and the manual P2P processes that the activities performed. In FY 2010,
the activities had performed some reviews that identified abnormal balances existed in their
general ledger accounts. However, the Army’s departmental-level financial reporting processes
masked the abnormal account balances by netting the account balances of all the AWCF
activities and reported normal account balances on the AWCF financial statements. This
precluded senior Army resource and financial managers from properly gauging the results of
normal LMP business operations.

Headquarters AMC had not determined the internal control procedures and checklists needed to
assess any of the LMP processes. During the audit, AMC managers established a working group
to begin establishing the framework for a more robust internal control assessment of the LMP



                                                18

P2P business processes. ASA(FM&C) should direct AMC to develop a comprehensive internal
control program to assess the quality of LMP performance and regular management and
supervisory activities over the LMP P2P business process.

Conclusion
Army managers did not perform sufficient business process reengineering to implement the
BEA’s P2P business process within LMP successfully. Instead, the Army recreated most of the
legacy business processes within LMP, which did not correct the long-standing material
weaknesses within the P2P business process. Army managers did not assess all offline systems
and procedures used by the LMP activities to create, approve, and reconcile P2P transactions and
design the LMP functionality needed to accomplish those tasks. As of August 31, 2011, LMP
Project Office and AMC activities created numerous workarounds that resulted in LMP
implementing incorrect posting logic that resulted in abnormal balances and account
relationships of $10.6 billion. Army managers did not develop performance measures to assess
LMP data and implement the corrective actions needed to resolve known problems.

Dual processing and posting of contract data, receiving reports, and invoices in both an
entitlement system and LMP was inefficient, prone to errors, and obscured the audit trail back to
source documents and transactions. The lack of integrated LMP business processes required the
Army and DFAS to continue performing costly prevalidations to ensure proper obligation
matching required by the Core Financial System Requirements and reconciliations to maintain
the correct data between the systems. In addition, Army managers did not ensure that LMP
activities and AMC managers monitored operations within the LMP P2P business process. As
part of the new Army ERP Strategy, the Director, Army OBT and ASA(FM&C) should develop
a plan of action and milestones to bring the LMP system into compliance with BEA P2P
business rules. The ASA(FM&C) should work with AMC G-8 to conduct a review of the LMP
unobligated authority and determine whether an Antideficiency Act violation occurred when
LMP activities appeared to exceed their AMC allotted authority. They also should redesign the
LMP prevalidation process, stop automatically establishing obligations for unmatched
disbursements until activities accomplish proper reconciliation as required by the DoD FMR, and
develop a system edit check that identifies when an activity exceeds the allotment contained in
GLAC 4610. In addition, ASA(FM&C) should direct the AMC internal control managers to
develop a comprehensive internal control program to assess the LMP P2P business process.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Director, Army Office of Business Transformation and
Assistant Secretary of the Army (Financial Management and Comptroller) develop a plan
of action and milestones to bring the Logistics Modernization Program system into
compliance with the DoD Business Enterprise Architecture Procure-to-Pay business rules.
Specifically, as part of the Army Business System Information Technology Strategy, define
the Army’s plans for developing effective and efficient Logistics Modernization Program
system business processes that will:

       a. Integrate the contracting and entitlement functions.


                                               19

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that Army managers
recognize that opportunities exist to improve the efficiency of the LMP P2P processes. The
ASA(FM&C) stated that current process segmentation adds to interface complexity and error
rates and is a source of abnormal balances. The ASA(FM&C) also stated that the LMP system
design is normal for typical ERP implementation and the best practice is to reduce risk
associated with large implementation projects by first fielding a basic capability and then
capitalizing on investment via driving more functionality into the system. As part of the Army
Business System Information Technology Strategy, Army managers will review the feasibility of
integrating additional P2P functionality within the LMP environment and will use the results of
the review to develop a plan of action and milestones addressing the viability of integrating
additional contracting and entitling functions, improving internal controls, and identifying
additional metrics and performance indicators. The plan of action and milestones will reflect
limitations imposed by the Department’s BEA related to contract writing, vendor invoicing,
payment entitlements, and disbursement processing.

Our Response
The Army comments were partially responsive. In the Army plan of action and milestones,
Army managers should address how to reengineer the Army current business processes to
remove or mitigate any limitations the Army believes are imposed by the BEA requirements and
then work with DoD senior leadership to implement the reengineered business processes. We
request that the ASA(FM&C) provide additional comments on the final report, explaining how
the Army will implement the reengineered business processes.

      b. Expedite a solution for resolving the in-transit inventory posting logic problems
and correct abnormal balances.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the December 2011
software release added capabilities for constructive receipts, automated in-transit inventory
accrual processes, improved the derivation of the trading partner indicator, corrected posting
logic resulting in the reduction of abnormal balances, and improved access controls to prevent
inaccurate cross-command postings. The ASA(FM&C) reported that these improvements
resulted in a $1.9 billion reduction in abnormal balances between August 2011 and December
2011.

Our Response
The Army comments were responsive.

       c. Reassess the system’s accounts payable business process flow and posting logic
and determine whether additional problems exist that cause abnormal balances. If so,
develop the corrective actions needed to resolve those problems.




                                              20

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the feasibility
review and P2P plan of action and milestones will identify additional opportunities to enhance
LMP P2P processing. The ASA(FM&C) stated that Army managers made significant changes
during 2011 that corrected the current configuration of transactions for contract authority,
corrected posting logic for credit card expenses, and enhanced configuration of Defense Travel
System and Integrated Product-Support Vendor transactions. Additionally, the December 2011
software release added capabilities for constructive receipts, automated in-transit inventory
accrual processes, and improved the derivation of trading partner indicator information. The
ASA(FM&C) also stated that the corrected posting logic resulted in the reduction of abnormal
balances and improved access controls to prevent inaccurate cross-command postings.

Our Response
The Army comments were responsive.

        d. Develop performance indicators to assist in identifying the potential for
significant posting errors and develop responsive corrective actions.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the Army will
perform a feasibility review as part of the Army Business System Information Technology
Strategy and use the results to develop a plan of action and milestones addressing additional
metrics and performance indicators.

Our Response
The Army comments were responsive.

       e. Develop the edit checks and business workflows needed to control and route
purchase requests and Military Interdepartmental Purchase Requests to the appropriate
individuals for approval and funds certification. This should include:

              (1) Associating fund codes and approval authority to an individual’s
assigned activity.

              (2) Assigning certification of funds availability to a limited number of
individuals and developing the requirement for the system to limit funds certification to
only these individuals.

               (3) Directing that fund managers establish commitments for purchase
requests at the time an activity releases the requests for obligation actions.

             (4) Developing the functionality needed for separate individuals to create
and accept Military Interdepartmental Purchase Requests within the system.




                                               21

               (5) Validating the data contained in the Program Activity Table and
ensuring that it is preparing manual documents correctly and developing compensating
controls to validate the data integrity of manually created obligations.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the Army will
continue to leverage the Army Business System Information Technology Strategy and
governance procedures to implement additional improvements as updates to the BEA and SFIS
are published. The ASA(FM&C) stated that the Army is in requirements definition discussions
for Local Vendor Pay enhancements that will enable LMP to perform entitlement functions
currently processed by other systems. These requirements include edit checks and business
workflows needed to control and route purchase requests and MIPRs through LMP to the
appropriate individuals for approval and funds certification, management of vendor data, and
entitlement functions. The Army expects to complete a requirements analysis by March 2012.

Our Response
The Army comments were partially responsive. Although the ASA(FM&C) stated that the Army
will define requirements for the Local Vendor Pay enhancements, she did not specifically state
how her office will ensure that the enhancements will address the specific issues identified in the
recommendation. We request that the ASA(FM&C) provide additional comments on the final
report, explaining how the enhancements will resolve the deficiencies in processing purchase
requests and MIPRs.

       f. Identify offline systems and procedures within the Procure-to-Pay phases,
incorporate the functionality into the system, and discontinue the use of offline processes.
In situations where Army managers cannot immediately incorporate the functionality,
develop compensating controls over non-integrated offline processes and restrict the
creation of manual commitment and obligation transactions to resource management
personnel.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the Army will
continue to leverage the Army Business System Information Technology Strategy and will
review the feasibility of integrating additional P2P functionality into LMP. The results of the
review will be used to develop a plan of action and milestones addressing the viability of
integrating additional contracting and entitling functions, improving internal controls, identifying
and correcting abnormal balances relating to P2P transactions, and developing and tracking
requirements imposed by the Department’s BEA related to contract writing, vendor invoicing,
payment entitlements, and disbursement processing.

Our Response
The Army comments were partially responsive. Although the ASA(FM&C) stated that the Army
will develop a plan of action and milestones, she did not state that the Army will develop
compensating controls for nonintegrated offline processes and restrict the creation of manual
commitment and obligation transactions to resource management personnel. We request that the



                                                22

ASA(FM&C) provide additional comments on the final report, explaining how the Army will
ensure that proper compensating controls are developed until related functionality is incorporated
into LMP.

g. Develop functionality within the system to capture and record the actual vendor invoice
date, vendor invoice number, and date of invoice receipt at the paying station. Also,
develop the data fields needed to record separately the actual receipt and acceptance dates
for goods and services.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the plan of action
and milestones will reflect limitations imposed by the Department’s BEA related to contract
writing, vendor invoicing, payment entitlements, and disbursement processing. The
ASA(FM&C) also stated that Army managers are currently in requirements definition
discussions for Local Vendor Pay enhancements, which would enable LMP to perform vendor
payment functions.

Our Response
The Army comments were partially responsive. The ASA(FM&C) did not identify how the
Army will develop functionality within LMP to capture and record the actual vendor invoice
date, vendor invoice number, and date of invoice receipt at the paying station. Also, the
ASA(FM&C) did not identify how the Army will develop the data fields needed to record
separately the actual receipt and acceptance dates for goods and services. Dual processing and
posting of contract data, receiving reports, and invoices in both an entitlement system and LMP
was inefficient, prone to errors, and obscured the audit trail back to source documents and
transactions. We request that the ASA(FM&C) reconsider her response to this recommendation
and provide additional comments on final report, addressing how LMP will capture the
appropriate invoice and receiving data needed to support obligation matching and prompt
payment requirements.

       h. Develop the ability to identify all documents related to Procure-to-Pay
transactions within a single system query.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that as part of the Army
Business System Information Technology Strategy, the Army will review the feasibility of
integrating additional P2P functionality within the LMP environment. The results of the review
will be used to develop the plan of action and milestones.

Our Response
The Army comments were partially responsive. The ASA(FM&C) identified the need to
develop a plan of action and milestones to address this recommendation. However, she did not
address how or when the Army will address implementing LMP functionality to identify all
documents related to the P2P transactions using a single query. The Core Financial System
Requirements state that systems must provide the capability to perform a query that would list all



                                               23

related documents and transactions in the processing chain for document referencing and audit
trail purposes. The absence of actual invoice numbers, P2P processing dates, and disbursement
voucher information prevented activities from using LMP to detect duplicate payments and
validate that payments complied with the Prompt Payment Act. We request that the
ASA(FM&C) reconsider her response to this recommendation and provide additional comments
on the final report, addressing how the Army will implement this query function within LMP.

   i. Develop a ready-to-pay file based on the system’s approval of prevalidation
requests.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that as part of the Army
Business System Information Technology Strategy, the Army will review the feasibility of
integrating additional P2P functionality within the LMP environment. The results of the review
will be used to develop the plan of action and milestones.

Our Response
The Army comments were partially responsive. The ASA(FM&C) identified the need to
develop a plan of action and milestones to address this recommendation. However, the
ASA(FM&C) did not specifically address the Army’s plan for developing LMP processes that
will create a ready-to-pay file based either on an approved prevalidation request or invoices
approved through the integrated entitlement function being developed in LMP. Implementing
the functionality in LMP to record the receipt and acceptance of goods and services and the
receipt of the invoice requesting payment will allow LMP to perform the appropriate obligation
matches as required by the Core Financial System Requirements. The Disbursements In-Transit
general ledger account (GLAC 2120) should liquidate an existing accounts payable transaction
based on the certification and transmission to a disbursing activity of that invoice for payment.
GLAC 2120 should be liquidated upon the posting of a related disbursement transaction returned
by the disbursing station. We request that the ASA(FM&C) reconsider her response to this
recommendation and provide additional comments on the final report, explaining how the Army
will develop the required LMP functionality.

A.2. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) direct the Army Materiel Command G-8 to:

       a. Conduct a review of the unobligated authority general ledger account balances to
determine whether an Antideficiency Act violation occurred, and take actions to correct
the abnormal balances and posting logic problems related to the accounts.

       b. Modify the Logistics Modernization Program system to cease the automatic
obligation of unmatched disbursements until activities accomplish proper reconciliation as
required by the DoD Financial Management Regulation.

       c. Develop a system edit check that identifies when an activity exceeds the allotment
contained in General Ledger Account Code 4610 and require activities to report each



                                               24

occurrence to the Office of Assistant Secretary of the Army (Financial Management and
Comptroller) for immediate resolution.

Department of the Army Comments
The ASA(FM&C) agreed and stated that she will direct Headquarters AMC to work with DFAS
Columbus to review the unobligated authority general ledger accounts balances for all LMP
activities and determine if any have exceeded their obligation authority. If this review discloses
the potential for an Antideficiency Act violation, appropriate action will be taken. Abnormal
balances disclosed by the review will be corrected. The Army will complete the review by
June 2012. In addition, the Army conducted a workshop in March 2012 to determine a
compliant LMP process and discontinue the automatic obligation process for unmatched
disbursements. The ASA(FM&C) also stated that the Army will use existing reports to better
monitor and flag potential issues with GLAC 4610, “Allotments.” The Army will include
milestones related to these actions in the P2P plan of action and milestones developed in
response to Recommendation A.1.

Our Response
The Army comments were responsive.

A.3. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) direct the development of a comprehensive internal control program for the
Logistics Modernization Program Procure-to-Pay business process to assess the quality of
performance and regular management and supervisory activities over the business process.
Army managers should work with Logistics Modernization Program Project Office
personnel to ensure that they design and implement the necessary procedures and controls
and develop the testing needed to ensure control effectiveness.

Department of the Army Comments
The ASA(FM&C) agreed and stated that the Army will assess key controls supporting all
Financial Improvement and Audit Readiness assessable units, including those related to P2P
activities, as part of the Army Financial Improvement Plan audit readiness discovery and
evaluation activities. The assessment will determine the effectiveness of the design and
operation of applicable controls and identify corrective actions required to bring controls into
compliance with audit standards. The ASA(FM&C) also stated that the assessment might also
recommend establishing a standard performance objective for those managers and supervisors
working P2P processes. These actions will be completed during FY 2013.

Our Response
The Army comments were responsive.




                                                25

Finding B. Logistics Modernization Program
System Access Controls Were Ineffective
Army managers did not establish LMP Functional Security Roles (FSRs) and other system
access procedures to ensure proper data integrity of the P2P business process. This occurred
because they did not provide effective oversight over the development and implementation of the
LMP FSR templates. Specifically, Army managers did not:

     •	 develop a risk matrix that alerts managers of potential segregation of duties and least
        privilege conflicts caused by assigning multiple LMP transaction screens within FSR
        templates,
     •	 develop adequate policies and procedures to ensure that system administrators and user
        supervisors effectively administered user access, and
     •	 perform periodic reviews of LMP user access.

As a result, the two activities we visited assigned 624 users FSRs that would cause segregation
of duties conflicts. In addition, users had more access than required and were granted access to
perform functions without proper authorizations. Further, LMP User Account Management
(UAM) administrators had not resolved or removed over 7,000 suspended user accounts. The
administration of user access placed LMP data at an increased risk for unauthorized and
fraudulent use.

System Compliance with Federal Information Security
Management Act
Public Law 107-347, “E-Government Act of 2002,” December 17, 2002, Title III, enacted
Federal Information Security Management Act (FISMA) of 2002 and required each Federal
agency to develop, document, and implement an agency-wide program that provides security for
the information and systems supporting that agency’s operations and assets. FISMA required
that the National Institute of Standards and Technology (NIST) develop and issue standards,
guidelines, and other publications to assist Federal agencies in implementing and managing cost-
effective programs to protect their information system data. NIST Special Publication 800-53,
Revision 3, “Recommended Security Controls for Federal Information Systems and
Organizations,” May 2010, addressed specific requirements for implementing proper separation
of duties, least privilege, and account management. 11 See Glossary for a definition of these
terms. The NIST requirements related to segregation of duties, least privilege access, and
account management provide the indicators of how well LMP safeguarded data integrity.

Role-Based Access Control Model
NIST Information Technology Laboratory Bulletin, “An Introduction to Role-Based Access
Control,” December 1995, defined guidance for developing a role-based access control model.


11
  Internal control standards issued by the GAO refer to segregation of duties. NIST publications refer to separation
of duties instead of segregation of duties. Within the report, we use segregation of duties.

                                                         26

The model required Army managers to perform a thorough analysis of how an entity operated
and how users functioned within an entity. The model also allowed access control policies to
align with the organizational lines of authority and responsibilities of the individual users. The
model provided an effective means for developing and enforcing LMP specific security polices,
including segregation of duties and least privilege, and for streamlining the account management
process. FSR templates identify the access and authorizations granted to a user and are
associated with the user profiles in the commercial software. When designed properly, each FSR
template should contain the minimum set of privileges required to perform assigned tasks or
functions.

Developing Logistics Modernization Program Functional Security
Role Templates
As of August 4, 2011, the LMP Project Office had developed 376 FSR templates to assign LMP
user access. Each template incorporates the applicable transaction screens needed to perform
standard LMP functions. 12 For example, FSR template “R/3 ACQ Change Purchase Requisition
NB ZB” provides the ability to modify a purchase request using the ME52N transaction screen.
The template also allows users to view any LMP purchase request using the ME53N transaction
screen. See Appendix F, Table F-1 for titles of transaction screens. The LMP Project Office
worked with the UAM managers from each LMP activity to tailor the FSR templates to the
functions performed within each AWCF activity.

Issuance of Army Materiel Command User Access Policy
During 2007, AMC, G-3, issued the LMP End User Access and Account Management Policy
(LMP User Access Policy), which designated the Enterprise Integration Directorate as the
overall policy administrator for LMP user access and account management. The policy assigned
the commander at each LMP activity the responsibility to appoint an UAM manager to oversee
and manage the activity’s LMP system access.

Segregation of Duties and Least Privilege Controls
Army managers did not establish the proper data integrity controls to resolve segregation of
duties and least privilege conflicts when they provided the requirements the LMP Project Office
used to develop the LMP FSR templates. 13 The LMP Project Office used the role-based access
model for developing the FSR templates and designed the FSR templates to accomplish the
specific job functions as defined by AMC managers. It had also designed specific FSR templates
as “Restricted” to allow activities to limit access to certain transaction screens to only those users
needing to accomplish a specific task for limited periods. For example, the LMP Project Office
created restricted FSR templates that limited the ability of users to modify the LMP vendor
master information or approve certain transactions, such as employee timesheet data. Restricted


12
  Each function may have one or more LMP transaction screens associated with it. Each transaction screen may
require the access for one or more authorization fields and was identified by a unique code consisting of letters and
numbers.
13
 Least privilege requires that activities assign user access based upon the minimum access that a user requires
when performing the tasks assigned by business function and organization.

                                                         27

FSR templates required an additional level of approval from the Business Transformation Lead
responsible for that business process at each LMP activity. However, Army managers did not
adequately map each of the individual FSRs they created to the P2P business process.
Consequently, they had limited assurance that segregation of duties or least privilege conflicts
would not occur when they created individual FSR templates or when authorized individuals at
AWCF activities assigned multiple FSRs to users.

Assessing Templates for Procure-to-Pay Business Process Conflicts
Army managers did not determine which transaction screens, when assigned together, caused
segregation of duties conflicts. At least 82 of the 302 FSR templates had a direct relationship to
the P2P business process and 13 of the 82 FSR templates contained the LMP transaction screens
that allowed users to record the receipt of goods or services function (MIGO or ZIGO). Of the
13 FSR templates, 7 contained inherent segregation of duties conflicts. For example, the FSR
template “R/3 IMWM Goods Movement” inappropriately allowed the Receiving Specialist,
MRP Planner/Buyer, or Warehouse Specialist to change a purchase order (ME22N), record the
receipt of goods or services (MIGO or ZIGO), transfer goods (MB1B), and adjust the inventory
within the warehouse (MB1A). The combination of these transaction screens created a
vulnerability to unauthorized and fraudulent transactions because LMP users with this access
could change purchase orders, enter the goods receipts, and change inventory records. The two
AWCF activities we visited had assigned 624 users one or more of these seven FSR templates,
                                                    which contained the ZIGO or MIGO
     The two AWCF activities we visited had         transaction screens and another transaction
     assigned 624 users one or more of these        screen that created an inherent segregation of
   seven FSR templates, which contained the         duties conflict. Appendix F explains the
     ZIGO or MIGO transaction screens and           potential segregation of duties conflicts that
   another transaction screen that created an       could exist within the P2P business process,
      inherent segregation of duties conflict.      and Table F-1 identifies the LMP transaction
                                                    screens that could pose conflicts. Because
Army managers did not define the FSR requirements and identify potential conflicts, the UAM
managers did not have the ability to train their administrators and supervisors on how to assign
system access correctly.

In addition, some FSR templates did not comply with specific laws and regulations to ensure the
system maintained data integrity. For example, commanders at both the LCMC and Depot did
not ensure that the process to assign 13 FSRs that performed receipt of goods or services
function (MIGO and ZIGO) was assigned to only those individuals appointed in writing as a
Designated Accountable Official by the LMP activity’s commander. This written appointment
was necessary to comply with DoD FMR, volume 5, chapter 33, “Certifying Officers,
Departmental Accountable Officials and Review Officials,” August 2010. UAM administrators
or supervisors were then able to validate that the users were appointed to fulfill this requirement
before granting them access to perform these functions. As a result, the LMP activities had not
implemented the requirements of the Certifying Officers’ Legislation and could not hold the
LMP users performing receipt and acceptance functions accountable for improper payments
resulting from the data they provided to entitlement systems. Without identifying the conflicts
and other regulatory requirements needed to perform business events within LMP, activities
unknowingly subjected LMP to data integrity problems and potential compromise. Army

                                                28

managers should determine the impact of regulatory requirements, such as the Departmental
Accountable Official Legislation, on the development and issuance of FSR templates.
Supervisors and system administrators should ensure the proper appointment of all users before
granting access to the templates.

Developing a Risk Matrix of Potential Conflicts
Army managers did not develop a risk matrix that assessed the assignment of LMP transaction
screens within templates used during the P2P business process for potential segregation of duties
conflicts. The BEA business rules provided specific guidance on how functions related to the
P2P business process needed to be assigned and highlighted potential segregation of duties
conflicts that could exist. Army managers did not assess the risk of assigning each of the LMP
transaction screens used in the P2P business process to ensure that the LMP Project Office
developed FSR templates that segregated duties correctly. Army managers should have
developed a risk matrix, which identified each transaction screen within the P2P business process
and highlighted transaction screens, when assigned together, would create a segregation of duties
conflict. Table 2 is a sample of risk matrix related to the LMP P2P business process in which a
dot denotes pairs of transaction screens that would create a conflict if assigned to the same user.

                        Table 2. P2P Transaction Screen Risk Matrix

 LMP
Screen        ME51N             ME52N             MIGO             ZIGO         XK01
ME51N                                               •                •            •

ME52N                                                 •               •            •

MIGO               •                •                                              •

ZIGO               •                •                                              •

XK01               •                •                 •               •


Army managers should have worked with LMP personnel to map the templates to the P2P
business process and identify which FSR templates, when assigned together, would create
conflicts. For example, as shown in Table 2, LMP users who could record the receipt goods and
services (MIGO and ZIGO) should not also have access to create or modify purchase requests
(ME51N or ME52N) or update the Vendor Master (XK01) to prevent unauthorized transactions
that could go undetected. Army managers should then have determined whether they needed to
separate the functional authorities in the templates to prevent segregation of duties conflicts or
develop compensating controls to monitor the potential conflict created within the template.
Army managers should perform a risk assessment of the LMP transaction screens assigned
within the FSR templates to minimize the potential for segregation of duties conflicts.




                                                29

Assigning Users Multiple Functional Security Role Templates
Resulted in Conflicts
UAM administrators and supervisors created additional segregation of duties and least privilege
conflicts when assigning the FSR templates to employees. At the two activities visited, UAM
administrators and supervisors stated that they were unaware of a requirement to administer FSR
templates based upon segregation of duties and least privilege concepts, and they did not know
which FSR templates could create a conflict. As of November 2010, UAM administrators at the
two activities visited had assigned 10 or more FSRs to 1,998 of the 3,513 LMP users, while more
than 850 of the 3,513 LMP users had 25 or more FSRs assigned to them. Although users
required a certain number of FSRs to accomplish day-to-day tasks, the assignment of 25 or more
FSRs appeared to indicate that Army managers did not design the FSR templates properly for
conducting the LMP business process and did not achieve the role-based system access control
needed to maintain data integrity.

The assignment of multiple FSRs to a user could create a least privilege conflict if they were not
necessary for the individual to perform job responsibilities. For example, the Depot assigned one
user the FSR “R/3 IMWM [Restricted] CCI Movement.” This FSR allowed for the transfer of
cryptographic items. Of the transactions available within this FSR template, the user informed
us that they only required transaction screen ZMMBE (Stock Overview). However, the template
also contained access to transaction screens to create and modify purchase orders (ME21N and
ME22N), create equipment (IE01) as used within plant maintenance, and change outbound
delivery documents (VLO2N). The user did not require any of these transaction screens to
perform her job. The assignment of excess access caused a least privilege conflict. The need for
most users to have the functional authorities in multiple FSR templates demonstrated that Army
managers had not effectively mapped the FSR templates to the P2P business process. They also
did not provide the UAM administrators and user supervisors with sufficient guidance on how to
assign multiple FSR templates to an individual user without causing least privilege and
segregation of duties conflicts.

AMC personnel should map each FSR template created to the BEA P2P process to determine the
existence of potential segregation of duty and least privilege conflicts. If conflicts exist, they
should reassign the transaction screens to other FSR templates as necessary to prevent conflicts.
Once this assessment is completed, managers should redesign the templates to cover the specific
job functions performed at each LMP activity and limit user access to only those transaction
screens needed to perform specific functions.




                                               30

Implementing Other System Controls to Prevent Conflict
AMC managers stated that they had not developed or implemented other types of LMP system
controls that would prevent UAM administrators and supervisors from assigning FSRs, that
when combined, created conflicts. The commercial software package contains a Governance,
Risk, and Compliance module, which helps prevent unauthorized access and achieve real time
visibility into access risk. Army managers stated that they have identified the need for the
module but have not yet funded its purchase. AMC should either purchase the system software
or identify and develop other system controls needed to assist in identifying excessive or
unauthorized access.

Developing Consistent Account Management Policy and
Procedures
Although AMC developed an LMP User Access Policy, it did not provide LMP activities with
                                               the detailed procedures to implement the policy.
   The LMP User Access Policy did not          The LMP User Access Policy did not identify a
       identify a preferred method for         preferred method for controlling system access,
    controlling system access, assigning       assigning FSRs to users based on specific job
     FSRs to users based on specific job       descriptions, or defining FSR templates that when
  descriptions, or defining FSR templates      assigned together created potential segregation of
    that when assigned together created        duties or least privilege conflicts. In addition, the
  potential segregation of duties or least     policy did not contain adequate procedures to
              privilege conflicts.             ensure that the UAM administrators implemented
                                               the NIST account management requirements. NIST
requires that an information system have the ability to identify authorized system users and
specify user access privileges. NIST also requires appropriate officials to establish accounts and
for organizations to activate, modify, disable, and remove accounts and notify account managers
when users are terminated or transferred and deactivate accounts of terminated or transferred
users. The two LMP activities visited developed unique procedures for administering user
access. The Depot and LCMC did not consistently or appropriately:

   •   administer the management of user FSRs,
   •   adjust access based on changing job assignments,
   •   remove access when an individual left the organization or lost their security clearance, or
   •   review assigned user access on a regular basis.

There was also a lack of consistency on how the two activities performed UAM account
management. The Depot employed a single part-time UAM administrator who used a mostly
manual process to manage LMP user access. The six full-time UAM administrators at the
LCMC used an offline database to track supervisor approval and manage LMP user access. Both
activities had control weaknesses in how the UAM administrators controlled system access.

Letterkenny Army Depot System Access
The Depot UAM administrators and managers did not effectively establish and maintain user
access. As of November 1, 2010, the Depot UAM administrator had assigned 943 users between


                                                31

2 and 95 of the 179 FSR templates that Depot managers determined applicable for use. Of those
943 users, 254 users had 25 or more FSRs assigned to them. The Depot used a mostly manual
process for granting system access that started with the supervisor submitting a request form to
the UAM administrator. The UAM administrator reviewed the FSRs in the request and routinely
granted the system access unless the supervisor requested “Restricted” FSRs. The UAM
administrator forwarded any requests for “Restricted” FSRs to the Depot’s LMP Transformation
Chief for additional approval. However, the UAM administrator did not maintain an automated
database that supervisors could use to identify the FSRs already assigned to an employee. In
addition, there was no automated method to notify the UAM administrator when users left the
Depot or changed assignments that affected the FSR assignments.

To assist us in determining whether adequate LMP system access controls existed at the Depot,
we surveyed a sample of the 943 user accounts. See Appendix G for details on how we
conducted the survey. Although most users thought they had the access needed to perform their
jobs, we estimated that:

       •	 391 users were unaware of all the FSRs and transaction screens assigned to them (a
          potential least privilege conflict),
       •	 885 users had at least one FSR assigned that they did not use (a potential least privilege
          conflict), and
       •	 140 users had potential segregation of duties conflicts. For example, some users had the
          ability to create and update purchase requests and purchase orders and receive goods.
          Other respondents could perform purchasing functions as well as receive, accept, transfer,
          and write-off goods. 14

The UAM administrator was also able to assign FSRs to herself. She had this access to perform
the other tasks assigned to her, such as working with the material master, clearing transactions,
and making mass updates of information within the system (system cleansing). LMP Project
Office and AMC G-3 personnel stated that there was no policy prohibiting UAM administrators
from assigning access to themselves. These personnel also stated that other LMP activities
allowed UAM administrators to assign FSRs to themselves to perform activity workload. AMC
managers could not identify any compensating controls they implemented to monitor the FSRs
assigned to the Depot’s UAM administrator. The ability of the UAM administrators to assign
FSRs to themselves without higher level monitoring makes LMP data vulnerable to fraud and
abuse that could go undetected by Army managers. AMC G-3 should work with LMP activities
to control UAM administrator roles and prevent administrators from assigning FSRs to
themselves, or develop appropriate compensatory controls.

Aviation and Missile Life Cycle Management Command System
Access
The LCMC did not implement effective LMP account management for establishing and
maintaining user access. As of October 18, 2010, the LCMC UAM administrators had assigned
2,570 users between 1 and 95 of the 162 FSR templates determined applicable for use by LCMC


14
     See Appendix G for sample methodology and projections.

                                                       32

personnel. The LCMC had an offline database that tracked user access requests and supervisor
approvals. However, the UAM administrators did not keep the information in the database up­
to-date, making the offline database an ineffective tool for managing accounts. Interviews with a
limited number of users, supervisors, and UAM administrators, and reviews of documentation
identified the following control weaknesses.

   •	 By assigning users more FSRs than they needed to perform their assigned functions,
      UAM administrators and supervisors caused least privilege conflicts.

   •	 UAM administrators did not reconcile the FSR information between the offline database
      and LMP. As a result, the access contained in the offline approval database did not
      always match what the administrator had actually granted in LMP. For example, an
      individual to whom the administrator had assigned 95 FSRs in LMP, had only 61 FSRs
      assigned by the supervisor in the offline database. The discrepancy occurred when the
      UAM administrator removed a user’s access from the offline database upon reassignment
      of the individual to a new supervisor. However, the UAM administrator did not remove
      the access to the FSRs from LMP. Consequently, the user had more system access than
      intended.

Adjusting System Access for Reassigned User
The LMP User Access Policy did not provide UAM administrators and user supervisors with the
detailed procedures they needed to ensure that activities controlled the reassignment of LMP
users. The LMP User Access Policy directed supervisors to review assigned FSRs periodically
and, based on that review, request necessary changes to user access. However, supervisors were
not routinely informing the UAM administrators that a user’s access to FSRs was no longer
needed and required removal. At both activities visited, problems existed with how supervisors
implemented the policy. For example:

   •	 Supervisors allowed users to accumulate a large number of FSRs as they transferred
      between job assignments within the activity. Former supervisors generally did not
      request the removal of the FSRs assigned to a user before the user departed an activity,
      and the acquiring supervisor did not review the FSR templates previously assigned to a
      user before approving access to additional FSRs for that user. For example, we identified
      a user reassigned from an inventory management function to accounts receivable and
      project management function. The user’s supervisor did not notify the UAM
      administrator of the job change so that the UAM administrator could adjust the FSRs
      assigned to the user. The combination assigned to this user provided the user with
      excessive access. The user, who had access to the cash receipt and allocation
      transactions, had the ability to create customer orders, purchase orders, receipt of goods,
      and inventory adjustments. The user could also generate letters requesting customer
      payment. The UAM administrator removed the extra access when notified of this
      situation. However, the user could have performed system actions that might have
      resulted in a loss of funds or misappropriation of assets.

   •	 UAM administrators did not routinely review the accuracy of the information in the
      offline database or use other tracking mechanisms to ensure that users did not have extra

                                               33

       access. A review conducted by the LCMC UAM administrators identified 79 users who
       had been assigned to more than one office by the LCMC. The UAM administrators took
       immediate actions to adjust the access provided to the 79 users.

   •	 User access was not consistent with the tasks assigned. For example, a user at the
      LCMC, whose main responsibility was to enter high priority requests for repair parts
      from stock on hand within the LMP sales order module, also had FSRs to create and
      change certain types of purchase requisitions and purchase orders, receive goods, return
      goods to vendors, and dispose of goods. This user had no need to perform any of these
      additional functions. This happened because supervisors granted users more access than
      required for their assigned functions. In addition, UAM administrators did not review
      user access recorded in the offline database closely enough to identify access no longer
      required.

Army Materiel Command Activities Were Not Performing Periodic
Access Reviews of Logistics Modernization Program System Access
Managers at all levels did not conduct periodic reviews of LMP system access placing the
system at risk for potential misuse. The NIST standard requires that organizations define the
frequency of conducting user access reviews. The LMP User Access Policy states that LMP
activities should conduct system access reviews on an annual basis. However, neither the two
LMP activities visited nor Army managers were able to provide documentation showing that
they had conducted reviews of system access. UAM administrators confirmed that it was the
supervisor’s responsibility to review system access. However, the supervisors we spoke with at
the two activities visited stated that they were unaware of the requirement for periodic reviews.

User Access Removal Was Not Properly Performed
LMP User Access Policy directed supervisors to request removal of access for all employees
leaving their work unit through transfer or termination or because of the loss of their security
clearance. Supervisors at the two activities were not routinely removing LMP system access as
required, including those users that were inactive. At the Depot, 4 of 78 sampled users had left
the Depot or had their security clearance removed between February 1, 2010, and September 30,
                                               2010, but still had an LMP access account as of
   Depot records showed that 265 of the        November 1, 2010. The UAM administrator
     943 total user accounts were in an        removed the four user accounts when we informed
               inactive status.                her of the situation. This lack of control places the
                                               system at risk for potential misuse. Depot records
showed that 265 of the 943 total user accounts were in an inactive status. There was no
documentation showing which accounts required permanent deactivation or were simply inactive
due to non-use. LMP automatically placed a user in inactive status after 90 days of inactivity.
System access procedures require a review at regular intervals of all user accounts suspended due
to inactivity. The UAM administrator should have conducted a review of inactive users to
determine whether the users still required system access or if they had left the Depot and their
user account required permanent deactivation. Not performing this function demonstrated
ineffective account management. The Depot UAM administrator stated that she did not conduct



                                                34

reviews and that inactive users remained within LMP until Human Resources Office personnel
or a supervisor notified the administrator that the Depot had reassigned the user or the user had
departed the Depot.

The LCMC UAM administrators also did not have a procedure in place to monitor users in an
inactive status. As of April 6, 2011, the LCMC had 1,448 inactive system access accounts. As
                                            of June 30, 2011, 21,620 users had LMP system
   As of June 30, 2011, 21,620 users had    access. However, LMP had suspended
    LMP system access. However, LMP         7,787 system access accounts due to inactivity. In
    had suspended 7,787 system access       response to our audit concerns, the two activities
         accounts due to inactivity.        updated some of their user access and removed
inactive users. As of August 4, 2011, the Depot had reduced the number of total users from
943 to 725 and reduced inactive users from 265 to 48. As of August 8, 2011, the LCMC had
1,361 inactive users.

While the LMP User Access Policy does not specifically address the need for the UAM
administrators to review inactive accounts, Army Regulation 25-2, “Information Assurance,”
October 24, 2007, requires information assurance support personnel to terminate inactive
accounts verified as no longer required after 45 days. The LMP User Access Policy should
require the UAM administrator to perform regular reviews of system access accounts suspended
due to inactivity. UAM administrators should work with supervisors to ensure that users have
the access they require and to remove unneeded user access accounts from the system.

User Access Oversight Was Not Effective
Army managers did not provide sufficient oversight of LMP user access. Army managers had
not developed the guidance and internal control checklists or other control documentation
required to assess compliance with LMP access policies. Additionally, no one at any level could
provide documentation for any review performed of system access controls since LMP
implementation in July 2003. Headquarters, AMC Internal Review Office personnel stated that
they had not yet developed a program for assessing LMP system access controls. Without a
robust internal control review process to monitor LMP user access, LMP managers had limited
assurance that they developed adequate system controls that were operational effective to
monitor system access requirements. ASA(FM&C) should work with AMC to develop the
standards and guidance for implementing and monitoring the internal control requirements for
account management, segregation of duties, and least privilege.

Army Materiel Command Taking Actions to Update Account
Management
In March 2011, AMC personnel stated that they were revising the LMP User Access Policy. The
new policy was to contain updated procedures to assist UAM managers in effectively managing
LMP system access controls. Once updated, AMC personnel stated that they would be providing
additional training on the new policy to UAM managers, UAM administrators, and activity
personnel. They also stated that AMC had assembled a team to create internal control checklists




                                                35

 for activities to use in assessing system access controls. These actions are necessary to
strengthen the process and more consistently administer the LMP system access policy. AMC
plans to issue a new access policy in FY 2012.

To help ensure the consistent administration of system access, AMC should supplement the
updated policy with detailed procedures on how UAM administrators and supervisors should
assign FSRs to users. The procedures should provide for the use of an automated database, such
as the one used at the LCMC, to track system access approvals and reconcile to FSRs granted to
users in LMP. AMC should develop procedures to ensure notification of the UAM
administrators of any personnel action that could result in adjusting an LMP user’s access. The
procedures should require the appointment of at least one full-time UAM administrator at each
activity who is responsible for monitoring system access daily, resolving problems such as
system inactivity, and validating that approved roles do not create conflicts. Once AMC updates
the LMP User Access Policy with detailed procedures, UAM managers should train UAM
administrators and supervisors on how to properly assign user FSRs and assess the templates to
determine if specific functional roles must be modified or new templates created to perform the
activities mission. In addition, AMC should periodically provide centralized training on FSR
administration for all UAM managers, UAM administrators, and user supervisors—specifically,
training on account management, segregation of duty, and least privilege controls.

Conclusion
LMP FSRs and other system controls did not properly safeguard P2P data processing. Army
managers did not develop a risk matrix that assessed the assignment of LMP transaction screens
within FSR templates, and the processes used to develop and implement the FSRs did not
establish controls over segregation of duties and least privilege conflicts. AMC had issued an
LMP User Access Policy. However, the policy did not have sufficient detail to ensure that UAM
administrators and user supervisors could effectively administer user access. The policy did not
identify a preferred method for assigning FSRs to users or define FSR combinations that could
create segregation of duties or least privilege conflicts. UAM administrators and supervisors at
the two activities visited, assigned multiple FSRs to individuals that could result in conflicts.

The two activities did not perform consistent or effective account management, to include
assigning at least one full-time UAM administrator to administer user access, developing
common procedures and databases for administering the approval process, conducting regular
access reviews, and assessing inactive accounts for removal. Managers at all levels did not
perform periodic reviews of LMP system access. As a result, Army managers have subjected
LMP data to an increased vulnerability to unauthorized and fraudulent transactions. AMC has
recognized the need to strengthen system access controls. AMC plans to update procedures for
account management, segregating duties, and limiting access to the extent necessary to perform
duties. However, Army managers still need to reassess the development of their FSR templates
and map them to each of the BEA business processes to determine the controls needed to prevent
conflicts that could result in potential fraud, waste, and abuse. They also need to improve system
access controls by reviewing and assessing the impact that regulatory requirements and risk
assessment associated with assigning transaction screens have on the FSR templates developed.
They should ensure that the procedures developed are maintained and provide the UAM
managers and administrators the information they require to administer system access correctly.

                                               36

Once they redesign the FSRs templates, the ASA(FM&C) and AMC G-3 should perform a
one-time review of LMP access to identify and resolve segregation of duties and least privilege
conflicts.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) develop a plan for the Army Materiel Command to improve system access
controls within the Logistics Modernization Program system. Specifically:

       a. Determine the impact of regulatory requirements, such as the Certifying
Officer’s Legislation, on the development and issuance of the functional security role
templates. Within 60 days of the report, identify and correct missing and deficient official
appointment documentation before allowing access to the templates. Once identified,
supervisors and system administrators should ensure the proper appointment of users
before granting access to the templates containing those functions.

Department of the Army Comments
The ASA(FM&C) agreed and stated that she will direct Headquarters AMC and DFAS to
perform a comprehensive review in March 2012 of LMP system controls. The review will cover
access controls, interface controls, process controls, configuration controls, and data integrity.
The purpose of the review will be to identify system access deficiencies and risk and provide an
approach for addressing deficiencies. The ASA(FM&C) also stated that Army managers are in
the process of reviewing appointment documentation and additional requirements will be
identified in the plan of action and milestones.

Our Response
The Army comments were partially responsive. The Army did not specifically address that the
review would identify regulatory requirements, such as the Certifying Officer’s Legislation, on
the development and issuance of FSR templates. We request that the ASA(FM&C) reconsider
her response to this recommendation and provide additional comments on the final report,
explaining how she will restrict system access until proper appointment documents are
completed to ensure proper accountability over payment certification functions. The additional
comments should also identify a date for completing the review of appointment documentation
and correcting missing and deficient documentation.

       b. Perform a risk assessment of the Logistics Modernization Program system
transaction screens assigned within each of the functional security role templates and
minimize the potential for segregation of duties conflicts. Once this assessment is
completed, managers should redesign the templates to cover the specific job functions
performed at each activity and limit user access to only those transaction screens needed to
perform those job functions.




                                                37

Department of the Army Comments
The ASA(FM&C) agreed and stated that she will direct Headquarters AMC and DFAS to
perform a comprehensive review of LMP system controls. The review will cover a wide-range
of controls and will include necessary risk assessments and other tools and techniques to assess
and appropriately limit user access.

Our Response
The Army comments were responsive.

       c. Require the mapping of each functional security role template to the
Procure-to-Pay business process to determine the existence of potential segregation of duty
and least privilege conflicts. If conflicts exist, realign the transaction screens as necessary
to prevent these conflicts.

Department of the Army Comments
The ASA(FM&C) agreed and stated that the Army and Headquarters AMC will provide business
rules for handling segregation of duty conflicts when updating the FSRs. The ASA(FM&C)
stated that until Governance, Risk, and Compliance functionality is implemented, the Army will
continue to use existing meetings and policy to minimize conflicts. In response to
Recommendation B.2, the ASA(FM&C) stated that the Army plans to begin configuration of that
functionality in February 2012, with a release date of December 2012. To minimize the risk of
conflicts, FSRs will be reviewed and, if necessary, redesigned after Governance, Risk, and
Compliance implementation.

Our Response
The Army comments were responsive.

       d. Update the Logistics Modernization Program User Access Policy and include
detailed procedures that prescribe:

                  (1) How administrators and supervisors should assign functional security
roles to users.

              (2) How to manage user access to include the use of approval databases or
another tracking mechanism.

              (3) How administrators should perform regular review of system access
accounts suspended due to inactivity and work with supervisors to suspend or remove all
roles when a user departs a work unit, leaves an activity installation, or loses a security
clearance and obtain approval by the new supervisor of all access granted after
reassignment.




                                               38

Department of the Army Comments
The ASA(FM&C) agreed and stated that the Headquarters AMC Chief Information Officer
signed an updated User Account Manager Policy on January 24, 2012. The ASA(FM&C) stated
that the new policy requires the review of all suspended and inactive accounts on an annual
basis. The ASA(FM&C) also stated that managers and supervisors receive training on the use of
the UAM system on a regular and ad hoc basis as system and personnel changes occur.
Additionally, she stated that policy updates will be made as a result of system access reviews. In
response to Recommendation B.2, the ASA(FM&C) stated that the new policy addresses how
managers and supervisors assigned FSRs.

Our Response
The Army comments were generally responsive. Headquarters AMC provided us a copy of the
updated User Account Manager Policy. Although the ASA(FM&C) did not address how the
Army would manage user access, the updated policy identified how AMC would use a system
access tool to manage user access. No further comments are required.

       e. Conduct an initial review of system access, at all levels, to identify users who have
been granted unneeded access and, thereafter, conduct periodic reviews of system access.

Department of the Army Comments
The ASA(FM&C) agreed and stated that the Army and Headquarters AMC will provide business
rules for handling segregation of duty conflicts when updating FSRs. In response to
Recommendation B.2, the ASA(FM&C) also stated that the Headquarters AMC Chief
Information Officer will instruct activities on how to conduct an annual UAM review during the
third quarter of FY 2012. She also stated that Headquarters AMC Chief Information Officer
personnel will conduct periodic reviews to ensure UAMs are not assigning themselves privileges
and will take action for users violating their privileges.

Our Response
The Army comments were responsive.

       f. Develop a method to monitor the assignment of functional security roles at the
highest level and ensure that activities conduct the required periodic reviews.

Department of the Army Comments
The ASA(FM&C) agreed and stated that she will direct Headquarters AMC and DFAS to
perform a comprehensive review of LMP system controls. In response to Recommendation B.2,
the ASA(FM&C) stated that the updated User Account Manager Policy now addresses FSR
assignments and the mitigation of segregation of duties conflicts.

Our Response
The Army comments were responsive.



                                                39

B.2. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) work with the Army Materiel Command to:

       a. Provide centralized training for administrators and supervisors on how to use
functional security role templates to administer access and prevent conflicts.

      b. Purchase the system software needed to assist in developing the system controls
needed to prevent or identify excessive or unauthorized access, or identify and develop
compatible system controls using other means.

       c. Control administrator roles and prevent administrators from assigning
functional security roles to themselves or develop appropriate compensating controls.

Department of the Army Comments
The ASA(FM&C) agreed and stated that upon completing the system access review in
Recommendation B.1, the Army will be in better position to identify training requirements,
target audiences, and the right automated tool to handle provisioning of users and controlling
system roles and permissions. Within 60 days of the review, Army and Headquarters AMC will
review current training requirements and adjust them accordingly. The ASA(FM&C) stated that
the updated AMC User Account Manager Policy addresses FSR assignments and the mitigation
of segregation of duties conflicts, and additional corrective requirements will be addressed as
part of the development of a plan of action and milestones. She also stated that the Army has
plans to begin configuration of the Governance, Risk, and Compliance functionality in
February 2012, with an implementation date of December 2012. The functionality will
proactively mitigate risk and provide the system controls needed to prevent or identify excessive
or unauthorized access and segregation of duties conflicts. FSRs will be reviewed and, if
necessary, redesigned after Governance, Risk, and Compliance implementation to minimize risk.
Finally, the ASA(FM&C) stated that the Headquarters AMC Chief Information Officer will
conduct periodic reviews to ensure UAM administrators are not assigning themselves privileges
and will take action for any users violating their privileges.

Our Response
The Army comments were responsive.




                                               40

Finding C. Vendor Master Data Did Not Support
the Procure-to-Pay Process
Army Enterprise Systems Integration Program (AESIP) personnel did not determine the
Standard Financial Information Structure (SFIS) attributes needed to establish records in a
vendor master database and populate the correct domain values for Army ERP and other systems
to process P2P transactions correctly. This occurred because the Army OBT and ASA(FM&C):

     •	 did not direct the AESIP Program Management Office to function as the single source of
        Army vendor master information or require AESIP personnel to develop, manage, and
        maintain the Army’s vendor master for use throughout the Army’s ERP environment; and
     •	 allowed Army ERP program managers to develop their own methodologies for deriving
        vendor data. 15

As a result, Army ERP program managers have spent or intend to spend about $1.3 million to
develop unique functionality to derive vendor information in their own systems, but did not
resolve long standing material weaknesses related to accounts payable and intragovernmental
eliminations.

Vendor Master Information Requirements
SFIS is the comprehensive “common business language” that supports DoD information and data
requirements for budgeting, financial accounting, cost and performance management, and
external reporting across the enterprise. SFIS enables decision-makers to compare the cost of
programs and their associated activities and provides a basis for common valuation of DoD
programs, assets, and liabilities. The SFIS Transaction Library and accompanying SFIS matrix
provided DoD activities with the specific attributes, domain values, and business rules needed to
populate DoD accounting transactions correctly. The Glossary defines attributes, business rules,
and domain values. The SFIS matrix, version 8.0, March 2011, contained the business rules and
attributes required for implementing standard transactional domain values within DoD systems,
including three attributes that identified business partner information. 16 The SFIS business rules
required ERP systems to store and maintain the attributes and the domain values. A vendor
master database uses internal unique identification codes to aggregate and build table data on
which to base all functionality for ERP systems’ master data management. Table 3 identifies the
three SFIS Trading Partner Information attributes and their valid domain values.


15
  Although this report addresses issues with the implementation of LMP, the solutions developed within AESIP also
affect GFEBS use of the vendor master database. We identified similar issues with how GFEBS personnel
requested and used vendor master data. Reference to Army ERP program managers includes both the LMP project
manager and GFEBS program manager.
16
  DoD issued SFIS matrix version 7.0 in March 2010. It contained 72 attributes. SFIS matrix version 8.0 reduced
the number of attributes to 66. During this audit, we reviewed business rules for the business partner information in
both versions of the SFIS matrices and found no differences. Business partner information relates to commercial
vendors and other trading partners.


                                                         41

         Table 3. SFIS Trading Partner Information Attributes and Domain Values
          Attribute                            Domain Values Information
Key            Name                      Values                   Description
                                 F                    Other Federal entities
       Federal/Non-Federal                            Non-Federal entities, such as
TP1
       Indicator                 N                    private business or local, state,
                                                      tribal, and foreign governments
                                                      Other Federal entity Department
       Trading Partner
TP2                              3-digit code         Regular Code as determined by
       Indicator Code
                                                      the Department of the Treasury
                                 9-digit Data
                                                      All business partners except DoD
                                 Universal Numbering
                                                      entities
                                 System number
       Business Partner
TP3
       Number                    “DOD” followed by a
                                 6-digit DoD Activity DoD entities
                                 Address Code


Determining Standard Financial Information Structure Domain Values
and Business Partner Registration Status
The General Services Administration established the Business Partner Network (BPN) as the
single source for obtaining business partner information. The network provided direct access to
the two databases the Government used to register its business partners: the Federal Agency
Registration (FedReg) and Central Contractor Registration (CCR).

Federal Agency Registration Requirements
Treasury Financial Manual Bulletin No. 2011-04, “Intragovernmental Business Rules,”
November 8, 2010, requires Federal agencies that conduct business transactions with other
Federal agencies to obtain and use a unique BPN number and register it in the FedReg. 17 Federal
business partners must access the FedReg at least annually to validate and update their BPN
information.

Central Contractor Registration Requirements
The CCR is the primary registry for non-Federal business partners. The Federal Acquisition
Regulation requires both current and potential business partners to register in CCR to do business
with DoD financial and acquisition activities. It requires registrants to enter all mandatory CCR
information, including their Data Universal Numbering System number. It also required
Government personnel to validate all mandatory fields, including a validation of the taxpayer
identification number, with the Internal Revenue Service, before activating the CCR record. To
keep their registrations active, registrants must renew and revalidate their registration annually


17
  Treasury Financial Manual Bulletin No. 2007-03, October 2006, established the BPN requirement. Treasury
Financial Manual Bulletin No. 2011-04 superseded the previous version.

                                                     42

and maintain an active status until the government makes all payments to them on outstanding
contracts. The CCR User Guide requires registrants to categorize their organization as Federal,
state, local, tribal, or foreign governmental entity, or a private business.

Developing a Single Army Vendor Master
In November 2007, after the Army began ERP deployment, the Army identified the need to
develop AESIP as the integration program and authoritative source for its master data. 18 The
Army spent or planned to spend $242.8 million to develop AESIP as its vendor master data
manager. However, AESIP personnel did not determine the SFIS attributes needed in a vendor
master database to populate the correct domain values for Army ERP and other systems
                                             performing P2P functions to process transactions
  . . . AESIP personnel did not determine    correctly. This occurred because the Army OBT
   the SFIS attributes needed in a vendor    and ASA(FM&C) did not direct the AESIP
  master database to populate the correct    Program Management Office to function as the
  domain values for Army ERP and other       single source of Army vendor master data
    systems performing P2P functions to      information or require AESIP personnel to develop,
        process transactions correctly.      manage, and maintain the Army’s vendor master
                                             for use throughout the Army’s ERP environment.
The Army ERP Strategy reaffirmed the need for a vendor master database to maintain a single
source of Army business partner information. 19 Previously, Army ERP program managers
developed their own methodologies for establishing vendor tables for use within their respective
system. These methodologies incorrectly established the three required SFIS attributes related to
business partner information, which prevented them from accurately identifying business
partners and properly recording Federal and non-Federal business transactions.

Establishing Business Partner Records Using the Business Partner
Network Number
Although the Army designed AESIP to provide and sustain the hub services capability needed to
facilitate ERP integration, AESIP personnel had not assumed the responsibility needed to
become the single authoritative source of trading partner information as contained in its mission
statement. In addition, they did not develop the vendor master using the SFIS Trading Partner
Information attributes and domain values for establishing business partner records. Therefore,
AESIP personnel did not establish the business partner number (TP3) domain values as the
primary data field for establishing business partner records in the vendor master data. Instead,


18
  Army managers originally established AESIP as Product Lifecycle Management Plus in FY 2004, and renamed it
to AESIP in FY 2008. In November 2007, the Product Lifecycle Management Plus implemented a Customer and
Vendor Master data capability. In 2007 and 2008, the Army logistics community accomplished a three-phased ERP
Integration Analysis Study, which evaluated the best way to execute and integrate GFEBS, LMP, and Product
Lifecycle Management Plus. The study recommended a Federated ERP integration approach to leverage Product
Lifecycle Management Plus for Business Intelligence, Business Warehousing, and Master Data Management.
19
  The Army ERP Strategy defined the Army ERP environment as containing four ERP systems: LMP, GFEBS,
Global Combat Support System-Army, and Integrated Personnel and Pay System-Army. The Army ERP Strategy
used AESIP to integrate the business processes and data needed to accomplish business events within the Army ERP
systems.

                                                      43

AESIP personnel used a legacy process that established the records using a business partner’s
Commercial and Government Entity (CAGE) code or Routing Identifier Code. AESIP needed to
use the BPN to obtain its business partner information and cease obtaining vendor registration
information from other sources.

The Government developed the BPN databases (FedReg and CCR) to serve as the single source
for Government business partner information. The SFIS TP3 attribute was to provide a unique
identification for each business partner. DoD originally used databases for CAGE codes or
Routing Identifier Codes to uniquely identify business partners and provide similar information.
In November 2007, AESIP personnel began receiving domain values from the BPN databases.
However, AESIP personnel continued to use the CAGE code or Routing Identifier Code to
establish the individual business partner record in the vendor master instead of establishing
vendor master records using the BPN number provided by the databases as required by SFIS. If
they had established the vendor master using the BPN number, they could have then obtained
any additional information needed from such sources as the CAGE code or Routing Identifier
Code databases using the TP3 domain value. 20 If not registered in FedReg, AESIP personnel
should have required the business partner to register before establishing a vendor master record
for that business partner.

Despite having received the required TP3 domain values from the FedReg and CCR databases,
                                              the AESIP program manager did not establish a
    Based on the information received by      BPN number field in the vendor master structure to
   BPN number from the BPN databases,         use as the primary field needed to establish each
    the AESIP program managers should         vendor master record. Based on the information
       also have been able to record an       received by BPN number from the BPN databases,
    appropriate Federal and Non-Federal       the AESIP program managers should also have
    Indicator (TP1) and Trading Partner       been able to record an appropriate Federal and
   Indicator Code (TP2) domain value for      Non-Federal Indicator (TP1) and Trading Partner
     each business partner established in     Indicator Code (TP2) domain value for each
     the Army’s vendor master database.       business partner established in the Army’s vendor
master database. Appendix H describes how the Army should develop a vendor master database
using the three SFIS business partner attributes. Table H-1 provides the SFIS attribute data,
required source data, and AESIP data field requirements. To ensure that Army ERP systems,
and other systems performing P2P functions, provide the required SFIS business partner
attributes information, the AESIP program manager should develop the AESIP data fields
identified in Table H-1 within the Army vendor master database to record the three required
SFIS attributes. AESIP personnel should create all business partner records from information
contained in the Federal Agency Registration and Central Contractor Registration. AESIP
should establish individual business partner records using the BPN number and create data files
to populate the applicable SFIS attributes. Since the BPN has become the single source of
business partner information, DCMO should work with the Under Secretary of Defense
(Comptroller) to reevaluate the use of legacy registration processes such as the CAGE code and


20
  AESIP needs to be able to create records for business partners not required to register in one of the BPN databases
using a unique 9-digit Data Universal Numbering System number.

                                                         44

Routing Identifier Code databases for tracking business partner information and determine
whether DoD can eliminate these databases by merging them with the BPN databases. Army
OBT and ASA(FM&C) should require each Routing Identifier Code location to register in
FedReg before allowing AESIP to create a business partner record in the Army vendor master or
accepting any supplemental business partner information from that location.

Army Enterprise Systems Integration Program Needed to Provide
More Effective Data Management
The Army ERP Strategy reaffirmed AESIP as the single source of authoritative data for
developing a common vendor master database for use by all Army systems. However, in the
                                          Army ERP Strategy, Army OBT did not require the
  The AESIP program manager did not AESIP program manager to assume the authority for
  develop the vendor master data using master data and direct the use of the data by all Army
  the BPN number that would allow for systems. The AESIP program manager did not
     the capture of SFIS attributes for   develop the vendor master data using the BPN
   vendors and pass the information to    number that would allow for the capture of SFIS
           systems such as LMP.           attributes for vendors and pass information to systems
                                          such as LMP. AESIP personnel simply passed
vendor information from CCR to LMP and did not assume the authoritative control over that
information. AESIP personnel stated that the LMP Project Office was responsible for requesting
the appropriate AESIP business partner information.

AESIP personnel provided the LMP Project Office with a listing of the AESIP vendor master
data fields. LMP personnel determined the fields needed and provided the system mapping
requirements and commercial software layout structure of the targeted fields to AESIP
personnel. The AESIP personnel mapped the data fields as the LMP personnel requested and
provided the vendor information to the system. However, the methodology designed by LMP
personnel was flawed. Specifically, the LMP personnel did not request the proper data from
AESIP to record the SFIS Federal/Non-Federal Indicator attribute (TP1).

Incorrect Derivation of Federal/Non-Federal Indicator
Our review of the 2.3 million LMP vendor records that existed as January 4, 2011, showed that
LMP incorrectly classified Federal and non-Federal business partners. This occurred because the
LMP personnel derived the TP1 domain values for business partners using an incorrect
methodology. The methodology used derived the TP1 domain value based on whether the
business partner information received by LMP contained a DoD Address Activity Code
(DoDAAC) number. If the information contained a DoDAAC number, the methodology
classified that business partner with a domain value of “F” and recorded the transaction in the
subsidiary ledger supporting Federal Accounts Payable (GLAC 2110.9100). Otherwise, the
methodology classified the business partner with a domain value of “N” and recorded the
transaction in the subsidiary ledger supporting non-Federal accounts payable (GLAC
2110.9200). This methodology was incorrect because LMP personnel based the determination of
TP1 domain values on whether an activity had a DoDAAC number, rather than on the
information contained in the FedReg and CCR. The misclassified portion of the LMP Federal
and non-Federal business partners caused LMP to record all P2P transactions conducted with


                                              45

those business partners incorrectly. For example, LMP recorded a non-Federal contractor as
Federal because DoD had issued that contractor a DoDAAC number. Therefore, AWCF
managers could not rely on the LMP information related to Accounts Payable and other related
general ledger accounts to manage their activities with business partners and make
intragovernmental eliminations.

Incorrect Use of Defaulted Trading Partner Indicator Domain Values
LMP Project Office personnel did not request the proper data field from FedReg for the Trading
                                        Partner Indicator Code attribute (TP2). Army managers
     Army managers should have
                                        should have directed the Army ERP program managers to
   directed the Army ERP program
                                        request the Department Code of each Federal entity from
       managers to request the
                                        FedReg. Instead, LMP Project Office personnel created
  Department Code of each Federal
                                        their own methodologies to derive the information and
         entity from FedReg.
                                        did not derive accurate TP2 domain values. The LMP
methodology incorrectly recorded a TP2 domain value of “99” for all business partners recorded
in the subsidiary ledger supporting Federal Accounts Payable. This methodology caused the
misclassification of all LMP transactions with these business partners because “99” did not
represent the actual TP2 domain values for the business partners. 21 Problems in obtaining
accurate TP2 domain values have prevented the Army from resolving its material weakness
related to intragovernmental eliminations.

Logistics Modernization Program System Did Not Use Trading
Partner 3 Attribute Correctly
Army managers did not require the LMP Project Office to use the TP3 attribute as the primary
data field to establish, populate, and maintain the vendor master and the domain values as each
business partner’s unique identifier. This occurred because Army managers believed that
systems, such as LMP, were exempted from this requirement. However, BTA verified that the
Army must use the TP3 domain values for unique identification of its business partners. Because
LMP did not maintain TP3 domain values, it could not identify its business partner information
as required by SFIS.

Business Program Number Registration Status Controls Disabled
LMP did not identify inactive business partners. LMP Project Office personnel stated that LMP
had the capability to track the status of the CCR active records; however, they had turned off the
CCR registration status controls in LMP because inaccurate information prevented them from
making payments to business partners. By not using the CCR registration status controls, the
LMP Project Office circumvented the system’s control to prevent inactive business partners from
receiving new contracts or additional payments.




21
     Trading Partner Indicator Code “99” did not represent a valid Department Regular Code.

                                                         46

Developing Vendor Master Data with Standard Financial Information
Structure Attributes
To provide effective data management over the vendor master data process, the AESIP Program
Management Office needs to assert its authority and create the vendor master data fields to
establish unique business partner records based on the three SFIS trading partner information
attributes obtained or derived from the BPN. As a data manager, AESIP needs to become the
single-source for creating, updating, and deleting Army business partner records. Having a
single source of Army vendor master data would control the vendor master data outside of the
individual ERPs and add the appropriate internal control environment over the vendor master
information used throughout the Army. The Army OBT and ASA(FM&C) should issue a policy
appointing the AESIP program manager as the Army’s vendor master data manager and require
all systems doing business with the Army to use AESIP vendor master data. They should direct
the AESIP program manager to issue instructions on the administration and use of Army vendor
master data and ensure AESIP personnel validate the integrity of the business partner
information. The ASA(FM&C) should also validate that LMP has controls in place to reject new
contracts or payment requests from business partners with inactive registration flags.

Army Expended Funds to Develop Multiple Vendor Tables
The Army allowed Army ERP program managers to develop separate methodologies to derive
their own vendor information. As of April 30, 2011, Army ERP program managers spent or
                                          planned to spend about $1.3 million to derive unique
      As of April 30, 2011, the ERP       vendor master tables. 22 They used a portion of those
       program managers spent or          funds to correct vendor information in the system.
         planned to spend about           However, these efforts did not provide the SFIS trading
      $1.3 million to derive unique       partner information necessary to help resolve the
          vendor master tables.           Army’s material weaknesses related to its accounts
payable and intragovernmental eliminations. The LMP Project Office also created a process for
creating one-time vendors in LMP without establishing compensating controls over that process.
In addition, by not restricting the development of all business partner information to AESIP,
Army managers have created significant internal control problems relating to the information
within LMP. For example, the LMP Project Office created FSRs within LMP to create, update,
and manage the vendor master table. As of March 2011, LMP activities had assigned FSRs to at
least 133 LMP users that allowed them to edit or update vendor information to resolve
contracting or payment problems. As the master data manager, only AESIP personnel should be
able to create and manage vendor master data. Army ERP users should only have access to view
vendor master data. Using a single Army-wide vendor master helps to provide the necessary
internal control over the integrity and use of the vendor information. Army OBT and
ASA(FM&C) should direct the Army ERP programs to cease developing system change requests
to correct vendor master data within the individual ERP systems. The Army OBT and
ASA(FM&C) should direct ERP managers to discontinue creating and using FSRs that allow
users to create or update vendor master records and restrict that functionality solely to AESIP.


22
  This includes about $0.3 million that the GFEBS program manager intended to expend to develop vendor data
within that system.

                                                      47

Developing a Way Forward
Based on our audit, the AESIP Program Manager took immediate actions to develop a temporary
solution to provide TP1, TP2, and TP3 information to LMP until the Army develops a vendor
master that fully complies with SFIS requirements. AESIP personnel stated that the General
Services Administration would be consolidating eight of the Federal Procurement Systems and
the Catalog of Federal Domestic Assistance databases, including CCR and FedReg, into the
General Services Administration’s System for Award Management database in May 2012. This
consolidation effort will result in the development of a common vendor master within the
                                          Federal government and eliminate redundancies now
    The concept of developing an          contained in the FedReg and CCR databases. The new
    integration program, such as          database will include data fields for the Trading Partner
  AESIP, provides the Army a good         Indicator Codes and BPN Number that the AESIP vendor
  control over the master data used       master can use to derive and populate a TP1 value. The
       in its ERP environment.            concept of developing an integration program, such as
AESIP, provides the Army a good control over the master data used in its ERP environment.
The control of master data ensures the integrity of that data throughout the environment.

Based on the General Services Administration’s impending consolidation effort, the AESIP
Program Manager should develop the vendor master based on the data structure intended for the
System for Award Management database. The AESIP program manager should also establish
data fields to populate the TP2 and TP3 domain values from the new database and derive and
populate a TP1 domain value for each record based on these two domain values. The master
vendor database should use the TP3 domain values as the key data field for controlling vendor
records instead of the current CAGE code.

Conclusion
The Army had not developed the vendor master data needed to support the P2P business process.
Instead, the Army managers allowed the LMP program manager to spend or plan to spend
$1.3 million to create vendor tables. Although AESIP serves as the system integration program
to provide common master vendor data for the Army ERP environment, it has not yet become
the single source of authoritative reference data the Army needed to correctly establish and
maintain business partner information. The efforts of the AESIP Program Management Office
and the LMP program manager have not produced the vendor master data needed to eliminate
the material weaknesses within the Army’s P2P business process related to accounts payable and
intragovernmental eliminations.

When transitioning to its ERP environment, Army OBT and ASA(FM&C) should have directed
the AESIP program manager to develop common vendor master data that included the SFIS
attributes needed to identify business partners for the P2P business process. This would have
enabled the Army ERP systems to accurately classify, record, and report their Federal and non-
Federal transactions. The Army OBT and ASA(FM&C) need to provide the AESIP program
manager with the authority to function as the vendor master data manager and require AESIP to
establish, maintain, and provide the correct business partner information to the Army ERP
environment.



                                                48

Considering that the System for Award Management database is scheduled to be available in
                                      May 2012, the AESIP should develop the ability to
  Considering that the System for
                                      receive vendor master data from this new database.
  Award Management database is

    scheduled to be available in 

                                      The Army OBT should ensure that the Army ERP
   May 2012, the AESIP should
                                      systems have controls in place to prevent modifications
   develop the ability to receive
                                      of the AESIP vendor master data and the issuance of
 vendor master data from this new
                                      contracts and payments to business partners with inactive
             database.                business partner registrations. To provide authoritative
guidance to Army ERP program managers using vendor master data, the AESIP program
manager must have visibility of the vendor master data source information to ensure AESIP is
receiving all business partner information needed by the Army. In addition, the ASA(FM&C)
should ensure that Army ERP program managers receive and use the vendor information in
accordance with SFIS trading partner information requirements.

Recommendations, Management Comments, and Our
Response
C.1. We recommend that the Deputy Chief Management Officer work with the Under
Secretary of Defense (Comptroller) to review the use of legacy registration processes, such
as Commercial and Government Entity Codes and Routing Identifier Codes, to determine
whether DoD can eliminate the databases by incorporating them into the new System for
Award Management database.

DCMO Comments
The DCMO agreed and stated that her office will work with the Under Secretary of Defense
(Comptroller) and Defense Procurement Acquisition Policy to investigate the legacy vendor data
registry process to determine whether DoD can eliminate the databases by incorporating them
into the new System for Award Management database.

Our Response
The DCMO comments were responsive.

C.2. We recommend that the Director, Army Office of Business Transformation and
Assistant Secretary of the Army (Financial Management and Comptroller) direct in policy
that the:

      a. Army Enterprise Systems Integration Program Manager serves as the vendor
master data manager with the authority and personnel to:

             (1) Require all systems doing business with the Army to use only the vendor
master to populate business partner information.

              (2) Prevent Army Enterprise Resource Planning system users from creating,
modifying, or deleting vendor information and only allow for view access to master data by
other system users.

                                              49

             (3) Validate the integrity of the business partner information contained in
the vendor master records.

             (4) Create all business partner records from information contained in the
Federal Agency Registration and Central Contractor Registration until the System for
Award Management Database comes on line.

             (5) Establish individual business partner records using the Business Partner
Network number and create data files to populate the applicable Standard Financial
Information Structure attributes.

               (6) Issue instructions on the administration and use of Army vendor
information.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the Army Business
System Information Technology Strategy states that AESIP synchronizes and syndicates select
enterprise master data applicable to each Army ERP system. The ASA(FM&C) also stated that
the Army will continue to leverage its business system information technology strategy and
governance procedures to implement additional improvements as updates and opportunities avail
themselves. The Army Business System Information Technology Strategy, as a living
document, serves as the Army’s foundation and roadmap for executing the Army enterprise
architecture and will evolve in response to changes. Consequently, AMC and ASA(FM&C)
personnel will work with OBT personnel to reevaluate and adjust as necessary the functions of
the AESIP program manager and his role as the vendor master data manager.

Our Response
The ASA(FM&C) comments were partially responsive. The ASA(FM&C) stated that AMC and
ASA(FM&C) personnel will work with OBT personnel to reevaluate and adjust as necessary the
functions of the AESIP program manager and his role as the vendor master data manager.
However, she did not identify how the AESIP program manager will implement the six sub
elements of the recommendation. We request that the ASA(FM&C) and Director, Army OBT,
reevaluate their response to this recommendation and provide additional comments on the final
report, detailing how they plan to provide the AESIP program manager with the authority and
personnel to take the recommended actions.

      b. Army and non-Army Routing Identifier Code locations register within the
Federal Agency Registration database before creating a business partner record in the
Army vendor master record for doing business transactions with the Army or accepting
any supplemental business partner information from those locations.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed.



                                             50

Our Response
The Army comments were nonresponsive. The Army comments did not specifically address the
policy needed to ensure that Army and non-Army Routing Identifier Code locations register
within Federal Agency Registration database before creating a Army vendor master record for
doing business transactions with the Army or accepting any supplemental business partner
information from those locations. We request the Director, Army OBT and the ASA(FM&C)
reconsider their response to this recommendation and provide additional comments on the final
report, detailing how they enforce require the Army Routing Identifier Code locations to register
in the Federal Agency Registration or System for Award Management database before
establishing a vendor record in AESIP.

       c. Army Enterprise Resource Planning Project Offices:

             (1) remove functional security roles capable of adding, revising, or deleting
vender information; and

               (2) cease developing change requests for correcting of vendor master data.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed.

Our Response
The Army comments were nonresponsive. The ASA(FM&C) did not specifically address the
plan to direct the Army ERP Project Offices to remove FSRs capable of adding, revising, or
deleting vendor information from the ERP systems and cease developing change requests for
correcting vendor master data outside the AESIP environment. The ASA(FM&C) needs to
address how the Army plans to limit the responsibility of Army ERP Project Offices in managing
the master vendor data. We request that the Director, Army OBT, and the ASA(FM&C)
reconsider their response to this recommendation and provide additional comments on the final
report, detailing how the Army will limit the ability of Army ERP Project Offices from changing
vendor master data and ensure that only the AESIP program manager has the authority, access,
and funding needed to update vendor information.

C.3. We recommend that the Army Enterprise Systems Integration Program Manager
create and manage a vendor master based on the System for Award Management database
that can:

       a. Populate required vendor-related Standard Financial Information Structure
attributes with valid domain values.

       b. Establish the Business Partner Network number as the key data field for all
business partner records and use that data field when receiving and sending information to
Army and other systems.




                                               51

      c. Identify and track the business partner registration status in the Central
Contractor Registration and Federal Agency Registration databases and System for Award
Management database once implemented.

      d. Obtain all vendor information needed by Army Enterprise Resource Planning
systems and supporting systems.

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the AESIP program
manager will work with the stakeholders to implement this recommendation. Actions taken will
require policy, system, and process changes, and validation of Army vendor data to ensure that
the Army vendor master is in accord with System for Award Management vendor data.

With the respect to System for Award Management, the ASA(FM&C) stated that according to
the latest data element listing from the General Services Administration, the term Business
Partner Number will not be used. Commercial and non-government entities will register with
their Data Universal Numbering System number and it will be stored in the Data Universal
Numbering System number field. DoD agencies will register their DODAAC and it will be
stored in the DODAAC field. She stated that the AESIP vendor master will be enhanced to be in
line with the new data and that Army managers will work with LMP on the best and most cost
effective approach to have their system support the new design. The ASA(FM&C) stated that
the Army had completed actions related to Recommendation C.3.c. AESIP currently receives
the registration status and passes this information to the Army ERPs and will continue to receive
and provide this information with the migration to System for Award Management. The
ASA(FM&C) also stated that performing all derivations in AESIP, syndicating the results to
other systems, and prohibiting changes anywhere except in AESIP is the desired goal. However,
a cost-benefit analysis will be required to determine if this yields a tangible return on investment.

Our Response
The Army comments were responsive. Although the new System for Award Management may
not use the term Business Partner Number, the Data Universal Numbering System number and
DoDAAC contain the exact data that the Army will require to correctly establish the SFIS
business partner number (TP3) domain values. Therefore, the AESIP Program Management
Office must ensure that it develops a methodology to populate the SFIS TP3 values using both
the Data Universal Numbering System number and DoDAAC and use the TP3 element as the
primary key for establishing records in the AESIP vendor tables.

C.4. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) validate that the Logistics Modernization Program system has controls in
place to reject new contracts and payment requests from business partners with inactive
vendor registration flags.




                                                 52

Department of the Army Comments
The ASA(FM&C), responding on behalf of the Army, agreed and stated that the Army will
validate transactional data as part of internal control assessment. The test will include a
validation of business partner data in LMP compared to the data in AESIP. This validation will
occur after the Army has implemented System for Award Management, but not later than
September 30, 2012.

Our Response
The Army comments were responsive.




                                              53

Appendix A. Scope and Methodology
We conducted this performance audit from August 2010 through January 2012 in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

During this audit, we received detailed briefings from the BTA on the P2P business process
available within commercial software and from the LMP Project Office on how Army managers
had implemented the software to conduct and report Army business events. We conducted site
visits to the LCMC, the Depot, and DFAS Columbus to understand how each activity used LMP
to perform the P2P business process and control system access. We also held detailed
discussions with personnel from the offices of the USD(C); ASA(FM&C); AESIP PM; and
AMC G3/5, G6, and G8; as well as within the Army OBT and DFAS.

We obtained documentation to support Army’s implementation of the P2P business process and
initiatives to address abnormal accounts payable balances, local vendor pay, and prevalidation.
We obtained a database of the 2.3 million business partners in the LMP vendor table as of
January 4, 2011, and assessed anomalies in the database. We also obtained the LMP
disbursement file for “Delivered Orders - Obligations Paid,” (GLAC 4902) for November 2010
and reconciled it to the amounts reported on the monthly unadjusted trial balances for AWCF
activities using LMP. We sorted the 83,894 transactions in the file to identify those transactions
with a commitment number that would have affected the P2P business process. This left us with
a population of 57,330 transactions. We provided the adjusted file to the statisticians in the
Quantitative Methods and Analysis Division, DoD Office of Inspector General. After removing
the transactions under one thousand dollars and stratifying the remaining transactions into four
strata, the statisticians selected a stratified random attribute sample of 120 transactions. For each
of the 120 transactions, we reviewed documentation to assess the propriety of the transaction and
the validity of the LMP audit trail.

We analyzed the unadjusted trial balances reported by LMP activities for the fiscal years ended
September 2008, 2009, and 2010 and for the first six months of FY 2011. We assessed the
number and dollar values of abnormal balances reported in 2 proprietary and 12 budgetary
general ledger accounts supporting the P2P business process. We also assessed the abnormal
account balances within GLAC 4450, GLAC 4610, and GLAC 4700, supporting the AWCF’s
unobligated balance as of September 30, 2010, and the first 3 months and August of FY 2011.

We used statistical sampling and other analytical procedures to assess how UAM administrators
and LMP user’s supervisors at the LCMC and the Depot controlled system access and assigned
FSRs to users. We obtained the LMP system access assigned to all personnel in the LCMC and
the Depot as of October and November 2010 and assessed whether the issuance of user access
met the NIST requirements for account management, segregation of duties, and least privilege
access. We queried individuals having LMP access using a survey we developed. See
Appendix G for details on sample methodology and results.


                                                 54

Use of Computer-Processed Data
To perform this audit, we obtained data from LMP. We determined data reliability by reviewing
selected P2P business transactions and the support for them. We reviewed the month-end LMP
trial balances from September 2010 through March 2011 and August 2011. We determined the
propriety of the balances reported by LMP activities for the GLACs supporting the P2P business
process through reviews of the posting logic for the underlying business events. In the accounts
reviewed, several LMP activities reported abnormal balances and differences existed between
associated proprietary and budgetary general ledger accounts. We also obtained an LMP
disbursement file (GLAC 4902) for November 2010, and we were able to validate the balance to
the November 2010 LMP trial balances reported by the LMP activities. We reviewed
disbursement vouchers and supporting documentation for 96 of 120 sampled transactions. Our
review of the documentation showed that LMP did not always accurately record data related to
the P2P process. We relied on the source documents to provide us with the actual dates,
document numbers, and amounts that LMP activities should have recorded in LMP. LMP
posting logic problems caused abnormal balances and the incomplete and inaccurate posting of
business events adversely affected the reliability of the LMP reported data.

We also reviewed the 2.3 million vendor records in LMP as of January 4, 2011, and user access
databases for the two LMP activities we visited. Through our review of information associated
with the vendor records and FSRs assigned to users, we determined that the LMP vendor records
did not accurately classify business partners but LMP accurately reflected user access privileges.
However, LMP system access assigned to users did not always reflect the access that UAM
administrators and user’s supervisors believed users possessed. Our assessment indicated that
the LMP data were sufficient for reaching audit conclusions. However, the findings in the report
address the computer-processed data weaknesses found and the needed corrective actions.

Use of Technical Assistance
The Quantitative Methods and Analysis Division provided technical assistance throughout the
sample selection and evaluation process. The Quantitative Methods and Analysis Division
provided a stratified sample of disbursements made by LMP in November 2010 and a statistical
sample of LMP user access at the Depot as of November 1, 2010. See Appendix G for the
statistical sampling methodology.




                                                55

Appendix B. Prior Coverage
During the last five years, the GAO, DoD IG, and the U.S. Army Audit Agency have issued
10 reports discussing LMP functionality. Unrestricted GAO reports can be accessed over the
Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted U.S. Army Audit Agency reports can be
accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.

GAO
GAO Report No. 11-53, “Defense Logistics: Improved Management Oversight of Business
Systems Modernization Efforts Needed,” October 7, 2010

GAO Report No. 10-461, “Defense Logistics: Actions Needed to Improve Implementation of
the Army Logistics Modernization Program,” April 30, 2010

GAO Report No. 09-852R, “Defense Logistics: Observations on Army’s Implementation of the
Logistics Modernization Program,” July 8, 2009

GAO Report No. 07-860, “DoD Business Transformation: Lack of an Integrated Strategy Puts
the Army's Asset Visibility System Investments at Risk,” July 27, 2007

DoD IG
DoD IG Report No. D-2011-15, “Insufficient Governance Over Logistics Modernization
Program System Development,” November 2, 2010

DoD IG Report No. D-2009-87, “Controls Over Contract Obligation Data in the Logistics
Modernization Program,” June 15, 2009

DoD IG Report No. D-2007-065, “Controls Over the Prevalidation of DOD Commercial
Payments,” March 2, 2007

Army
U.S. Army Audit Agency Report No. A-2007-0205-FFM, “Logistics Modernization Program
System Federal Financial Management Improvement Act of 1996 Compliance–First Deployment
Functionality,” September 7, 2007

U.S. Army Audit Agency Report No. A-2007-0163-FFM, “FY 03–FY 05 Obligations Recorded
in the Logistics Modernization Program,” July 27, 2007

U.S. Army Audit Agency Report No. A-2007-0154-ALR, “Follow up Audit of Aged Accounts–
U.S. Army Communications-Electronics Life Cycle Management Command,” July 2, 2007




                                             56

Appendix C. Description of Technical
Requirements and Standards
This appendix describes the National Institute of Standards and Technology (NIST) standards
reviewed, the five standards of internal control, the three material weaknesses related to the LMP
P2P business process, and the Statement of Federal Financial Accounting Standard related to
Accounts Payable.

NIST Standards
   •	 Account Management requires entities to establish account management controls. An
      entity should have the ability to: identify authorized system users and specify user access
      privileges; require appropriate approvals for establishing accounts; establish, activate,
      modify, disable, and remove accounts; notify account managers when users are
      terminated or transferred; deactivate accounts of terminated or transferred users; grant
      access to the system based on a valid access authorization, the intended system usage,
      and other attributes as required by the organization or associated missions/business
      functions; and review accounts in accordance with the organizationally defined
      frequency.

   •	 Separation of Duties requires management to segregate system access so that more than
      one person is required to complete an end-to-end process using assigned access
      authorizations. Segregation of duties helps prevent and detect user errors and mitigate
      the potential for fraud and misuse of assets. The GAO internal control standards refer to
      this as segregation of duties. Within the report, we refer to this as segregation of duties.

   •	 Least Privilege requires system managers to assign user authority in such a manner so
      that only the information and resources necessary for legitimate purposes can be
      accessed. Least privilege requires that activities assign user access based upon the
      minimum access that a user requires when performing the tasks assigned by business
      function and organization.

Standards of Internal Control

   •	 Control Activities are the policies, procedures, and mechanisms in place to meet agency
      objectives, including proper segregation of duties, physical controls over assets, proper
      authorization, and appropriate documentation. Entities should also design application
      controls to ensure that the ERP systems can authorize and process transactions
      accurately.

   •	 Control Environment includes the organizational structure and culture to sustain
      organizational support for effective internal control. Management must clearly
      demonstrate its commitment to competence in the workplace when designing, evaluating,
      or modifying the organizational structure. Management must clearly define areas of
      authority and responsibility and appropriately delegate the authority and responsibility
      throughout the agency. Management must also establish a suitable hierarchy for

                                               57

       reporting and uphold the need for personnel to possess and maintain the proper
       knowledge and skills to perform their assigned duties as well as understand the
       importance of maintaining effective internal control within the organization.
       Management’s philosophy for establishing and maintaining effective internal control
       should aid in the successful implementation of internal control systems.

   •	 Information and Communications requires management to communicate relevant,
      reliable, and timely information to personnel at all organization levels. It is also crucial
      that an agency communicate with outside organizations whether providing information or
      receiving it. Situations requiring effective communications of information include
      receiving updated guidance from central oversight agencies, management communicating
      requirements to the operational staff, and operational staff communicating with the
      information systems staff to modify application software to extract data requested in the
      guidance.

   •	 Monitoring requires management to scrutinize the effectiveness of internal control in the
      normal course of business, including thorough periodic reviews and reconciliations or
      comparisons of data. Management should integrate periodic assessments in the agency’s
      operations. All personnel should report deficiencies found in internal control to the
      appropriate personnel and management responsible for that area and they should evaluate
      and correct the deficiencies.

   •	 Risk Assessment involves identifying internal and external risks that may prevent the
      organization from meeting its objectives. When identifying risks, management should
      take into account relevant interactions within the organization as well as with outside
      organizations and analyze the potential effect or impact on the agency.

Material Weakness Description
Office of Management and Budget Circular No. A-123 defines a material weakness as a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. The material weaknesses discussed in this report
are:

   •	 Accounts Payable. The Army relies on unsupported adjustments processed by DFAS to
      report accounts payable balances. These adjustments were required to account for
      undistributed disbursements and intragovernmental accounts payable. Army is working
      on implementing an upgrade for constructive receipts in LMP that targets correction of
      the accounts payable accounting and reporting issues. The LMP upgrade is scheduled for
      December 2011. Additional steps that will solidify correction of this weakness include
      actions to clean up legacy balances, elimination of record data types, correction of trading
      partner data, and full usage of Wide Area WorkFlow.

   •	 Abnormal Account Balances. In FY 2010, the AWCF Industrial Operations and Supply
      Management activities (limit-level) reported 81 abnormal account balances, valued at
      $2.1 billion, including 33 accounts for $1.6 billion in the LMP environment. The

                                                 58

       abnormal balances in LMP are caused by incorrect general ledger attributes. Full
       implementation of the SFIS in LMP will correct the abnormal balances caused by
       incorrect general ledger attributes. The remaining abnormal balances will be manually
       reconciled and corrected.

   •	 Intragovernmental Eliminations. Army systems were unable to collect, exchange, and
      reconcile buyer and seller intragovernmental transactions, resulting in adjustments that
      were not verifiable. DoD and AWCF systems did not capture the trading partner
      financial data at the transaction level needed to facilitate reconciling and eliminating
      intragovernmental transactions. DoD procedures require that the Army adjust its buyer-
      side transaction data to agree with seller-side transaction data from other Government
      entities without the entities performing proper reconciliations. As a result, DFAS
      Indianapolis adjusted to AWCF accounts to force the accounts to agree with the
      corresponding records of intragovernmental trading partners.

Defining Accounts Payable
Statement of Federal Financial Accounting Standards Number 1, “Accounting for Selected
Assets and Liabilities,” March 30, 1993, states the following about accounts payable:

   •	 Accounts payable represent amounts owed by a Federal entity for goods and services
      received from the entities; progress in contract performance and rents due to other
      entities.

   •	 The amounts owed for goods or services received from Federal entities represent
      intragovernmental transactions and require separate reporting from amounts owed to the
      public.

DoD FMR, volume 4, chapter 9, “Accounts Payable,” August 2009, requires DoD systems to
record accounts payable transactions using the appropriate U.S. Government Standard General
Ledger proprietary and budgetary accounts as defined in SFIS.




                                              59

Appendix D. Acronyms and Abbreviations

AESIP       Army Enterprise Systems Integration Program
AMC         Army Materiel Command
ASA(FM&C)   Assistant Secretary of the Army (Financial Management and
              Comptroller)
AWCF        Army Working Capital Fund
BEA         Business Enterprise Architecture
BPN         Business Partner Network
BTA         Business Transformation Agency
CAGE        Commercial Activity Government Entity
CCR         Central Contractor Registration
DCMO        Deputy Chief Management Officer
DFAS        Defense Finance and Accounting Service
DoDAAC      DoD Address Activity Code
DoD FMR     DoD Financial Management Regulation
DoD IG      DoD Inspector General
ERP         Enterprise Resource Planning
FISMA       Federal Information Security Management Act of 2002
FSR         Functional Security Role
GAO         Government Accountability Office
GFEBS       General Fund Enterprise Business System
GLAC        General Ledger Account Code
LCMC        Life Cycle Management Command
LMP         Logistics Modernization Program system
MIPR        Military Interdepartmental Purchase Request
NIST        National Institute of Standards and Technology
OBT         Office of Business Transformation
P2P         Procure-to-Pay
SFIS        Standard Financial Information Structure
UAM         User Account Management




                                   60

Appendix E. Business Transformation Agency
Procure-to-Pay Illustration
BEA 7.0 describes the P2P business process as encompassing all business functions necessary to
obtain goods and services. The BEA P2P business process identifies six phases during which
activities post financial transactions: Requisitioning and Commitments, Contracting and
Obligations, Goods Receipt, Invoicing, Entitlement, and Disbursing. The illustration in Figure
E-2, which BTA provided in August 2010, compares the intended BEA business process (top
portion) with the current “As Is” environment (bottom portion). The process also had a phase
entitled “budgeting” which we will assess during a separate audit of the LMP budget process.
Figure E-1 defines the acronyms used in Figure E-2.

                            Figure E-1. Listing of Illustration Acronyms
AVPRAT – Accounting Vendor Pay and Analysis Tool
BW - Business Warehouse
CAPS-W – Computerized Accounts Payable System- Windows
dbCAS – Database Commitment Accounting System
DCAS – DoD Cash Accountability System
FFMIA – Federal Financial Management Improvement Act
FFMRS – Federal Financial Management System Requirements
FSIO – Financial Systems Integration Office
ODS – Operational Data Store
PBAS – Program Budget and Accounting System
SPS – Standard Procurement System
SRD-1 – Standard Finance System Redesign
STANFINS – Standard Financial System
WAWF – Wide Area WorkFlow

Source: Auditor Developed




                                                61

Figure E-2. Business Transformation Agency Procure-to-Pay Illustration




Source: Business Transformation Agency




                                             62

Appendix F. Segregation of Duties
NIST Special Publication 800-53, Revision 3, “Recommended Security Controls for Federal
Information Systems and Organizations,” May 2010, control AC-5, defines segregation of duties
as the system access control that requires more than one person to complete an end-to-end
process using assigned access authorizations. Segregation of duties requirements applicable to
the development of LMP FSRs were:

   •	 segregate duties of individuals as necessary to prevent malicious activity without

      collusion, 


   •	 document segregation of duties risk by the organization, and

   •	 implement segregation of duties through assigned information system access

      authorizations. 


According to industry best practices, the best way to minimize the opportunity to commit fraud is
to implement a good system of internal controls, which includes proper authorizations and
segregation of duties. Within the P2P business process, the same user should not perform more
than one of the following functions: purchasing, receipt of goods, recording of invoices,
modification of inventory records, and creating or updating the master tables.

Identifying Potential Segregation of Duty Conflicts
Table F-1 shows the LMP transaction screens assignable to FSRs within the five P2P functions.

             Table F-1. LMP Transaction Screens for Procure-to-Pay Process
                        Receipt of      Recording of     Modify Inventory
   Purchasing            Goods            Invoices          Records              Master Tables
FMY1 – Create        MB1B –            FBR2 – Post       HUNINV05 –            MM01 – Create
Funds                Goods             Document          Clears Inventory      Material
Commitment           Movement                            Differences
FMY2 – Change        MB1C – Other      FB02 –            LI11N – Enter         MM02 – Change
Funds                Goods Receipt     Change an         Inventory Count       Material
Commitment                             Invoice
FMZ1 – Create        MIGO –            FB60 – AP         LI12N – Change        MM06 – Flag for
Funds Obligation     Goods             Invoicing         Inventory Count       Deletion
                     Movement
                     (Receipt)

FMZ2 – Change        ZIGO – Goods      FB65 – A/P        LI20 – Clear          MM17 – Mass
Funds Obligation     Receipt           Credit Memo       Inventory             Change Material
                                                         Differences           Master




                                               63

            Table F-1. LMP Transaction Screens for Procure-to-Pay Process
                                    (Continued)
                    Receipt of    Recording of    Modify Inventory
   Purchasing        Goods          Invoices         Records            Master Tables
ME21N – Create                   F-47 – Down     LI21 – Clear           XK01 – Create
Purchase Order                   Payments        Inventory Difference   Vendor Master
                                                 in MMI                 (All Areas)
ME22N – Change                   MIRO – Post     MB1A – Goods Issue XK02 – Change
Purchase Order                   Invoice                            Vendor Master
ME29N – Release                                  MB11 –                 ZAOR –
Purchase Order                                   Goods/Inventory        ZPS_Recovery
                                                 Adjustment             Table
                                                                        Maintenance
ME51N – Create                                   MI07 – Post Cycle      ZFUNDK2 –
Purchase                                         Count Differences      Maintain
Requisition                                                             Funding Table
ME52N – Change                                   MR11 –                 ZPSCFNDK –
Purchase                                         Goods/Invoices         Maintain Master
Requisition                                      Receipts Adjustment    Tables
ME53N – View                                     MR11SHOW –
Purchase Request                                 Reverses
                                                 Good/Invoice
                                                 Receipts Adjustments
ME59 – Auto                                      MR21 – Pricing
Generation of                                    Changes
Purchase Order
ZMILS – Process                                  MSC2N – Change
Requirement                                      Material Batch

ZMMR – Mass                                      VA01 – Create Sales
Create Vendor                                    Order
Returns
ZMO – Interfaces-                                VA02 – Change
Purchasing                                       Sales Order
Interface Monitor
ZFUND – Funds
Certification
Process




                                         64

Using the NIST guidance and various publications from major accounting firms, we identified
that access to the following LMP transaction screens could pose segregation of duties conflicts
when given to a single user.
   •	 The individual initiating or modifying a purchase request should not be able to create
      (XK01) or modify the vendor record (XK02), record invoices (FB60, MIRO), receive
      goods and services (MIGO, ZIGO), or reconcile inventory records (MB11).

   •	 The individual creating or approving purchase orders (ME21N, ME22N) should not be
      able to record invoices (FB60, MIRO).

   •	 The individual receiving goods and services (MIGO, ZIGO) should not have purchasing
      functions (ME21N, ME22N, ME51N, ME52N) or be able to modify the vendor records
      (XK01, XK02) or record invoices (MIRO, FB60) or credit memos (FB65).

The individual performing the three-way match of obligations, invoice, and receiving reports
(FB60, MIRO) should not also be involved in receipt functions (MIGO, ZIGO) or purchasing
functions (ME21N, ME22N, ME51N, ME52N), modify the vendor record (XK01, XK02), or
have any inventory functions (transaction screens listed under Modify Inventory Records in
Table F-1).




                                               65

Appendix G. Statistical Sampling Methodology
Based on the results of our judgmental review of system access at the LCMC, we worked with
the Quantitative Methods and Analysis Division to design a statistical sample at the Depot to
assess system access.

Sampling Purpose
The purpose of the statistical sampling plan was to determine whether system access provided to
users at the Depot demonstrated proper implementation of the FISMA requirements related to
segregation of duties, least privilege, and account management.

Universe Represented
We obtained the universe of LMP users assigned to the Depot as of November 1, 2010. The
universe consisted of 943 users. We identified the specific FSRs each user held. The number of
FSRs held by users ranged from 2 to 95.

Sampling Design
The sampling design was a stratified variable sample consisting of two strata: a census stratum
and a random stratum. For the census stratum, we selected the 13 users who had the highest
combined number of restricted FSRs and total FSRs assigned to them. For the random stratum,
we randomly selected without replacement 65 users from the remaining users in the universe.
We randomly selected users using the =RAND() function in Excel 2007.

Sampling Methodology
To determine whether the Depot had implemented effective account management practices and
help us determine potential segregation of duties and least privilege conflicts, we developed a
questionnaire containing three questions. We performed face-to-face interviews while at the
Depot with 11 of the 78 LMP users. Seven of the 13 users were from the census stratum and 4 of
the 65 users from the random stratum. We then designed and administered an e-mail survey and
transmitted it to the remaining 67 LMP users. The e-mail survey asked the users to identify their
job titles and provide information about the FSRs assigned, the tasks they performed on a regular
basis, and any FSRs and responsibilities assigned previously related to LMP. In the e-mail
survey, we provided a spreadsheet listing the FSRs assigned to each sampled user as of
November 1, 2010, including the transaction screens assigned within each FSR. We asked the
respondents to identify the purpose of each FSR assigned, the use of transaction screens within
each FSR, and the functions they accomplished using the transaction screens. We also requested
that the user identify any assigned FSRs they did not use. We asked these questions to determine
the extent to which the respondent used their access and determine whether the FSRs potentially
caused segregation of duties or least privilege conflicts and whether the Depot followed proper
account management practices. We also asked if they were part of the LMP Transition Team to
determine if that could be cause for assigned access outside of a respondent’s normal duties. We
used responses to the questionnaire to answer the following four questions.




                                               66

1.	 Was the user aware of the FSRs assigned? For this attribute, we assigned:
          • “No” to definitive statements made by respondents that indicated that they were not
       aware of the FSRs assigned, such as “There is no way I have this many FSRs,” “Can’t you
       send me the FSRs I really have,” or “I have never used LMP.”
           • “Yes” when the respondent provided a clear explanation of how they used at least one
       of the transaction screens assigned within each FSR.
          • “Not determinable” for respondents who did not provide a clear response to the
       question.
2.	 Does the user have the FSRs needed to perform job? For this attribute, we assigned:
           • “No” to the one respondent who stated that she could use additional screens not
       assigned.
           • “Yes” to respondents who stated they had the FSRs needed to perform their jobs.
          • “Not determinable” to the three respondents who had departed the Depot before we
       administrated the survey.
3.	 Does the user have excess FSRs assigned? For this attribute, we assigned:
           • “No” to respondents who identified all the FSRs assigned and the transaction screens
       they used within the FSRs. We also assigned a “No” to the one respondent who stated that
       she could use additional screens not assigned.
          • “Yes” to respondents who stated they did not use LMP, one or more assigned FSRs, or
       who could not identify all the FSRs assigned and the transaction screens they used.
4.	 Does potential exist for a segregation of duties conflict within the P2P business process? Using
    the information within Appendix F, we assessed the FSRs and transaction screens assigned to
    each of the 78 LMP users. For the attribute, we assigned:
        • “No” if a user’s access to a combination of LMP screens did not allow the user to
   accomplish more than one function (authorization, execution, custody, or recording), we
   determined that no potential segregation of duties conflict existed.
       •   “Yes” if a user’s access to a combination of LMP screens allowed the user to

   accomplish more than one function (authorization, execution, custody, or recording), we

   determined that a potential existed for a segregation of duties conflict.





                                                   67

Sampling Results
Table G-1 shows how we categorized the responses from the 78 sampled LMP users. We
provided the results to the Quantitative Methods and Analysis Division for statistical projection.

                              Table G-1. User Access Assessment
                                                                            Not
              Attributes Assessed                      Yes       No     Determinable
1. Is the user aware of the FSRs assigned?             10         32          36
 2. Does the user have the FSRs needed to
    perform the user’s job?                            74         1           3
 3. Does the user have excess FSRs assigned
    (FSRs that they do not use)?                       73         5           0
 4. Within the assigned FSRs, is there a
    potential segregation of duties conflict?          20         58          0

A significant number of users were unaware of the access assigned (attribute 1, “No” response).
Most users believed that had the access they needed to perform their job (attribute 2, “Yes”
response). In addition, most users had access to transaction screens they did not require to
perform their job (attribute 3, “Yes” response) or had FSRs assigned or transaction screens that
potentially resulted in a segregation of duties conflict (attribute 4, “Yes” response). Table G-2
provides the statistical estimate of the 943 users for each of the four attributes at a 90 percent
confidence level.

                        Table G-2. User Access Attribute Projections
                               (90 Percent Confidence Level)
Attributes Assessed                   Lower Bound            Point Estimate   Upper Bound
1. Users unaware of FSRs
assigned                                    289                  391               494
2. Users who believed they had
the access needed to do their job           830                  886               942
3. Users who had at least one FSR
assigned that was not used                  829                  885               941
4. Users with potential segregation
of duties conflict                          64                   140               215

We concluded that the Depot had not effectively implemented the requirements for accounts
management, segregation of duties, and least privilege.




                                                  68
  Appendix H. Developing the Vendor Master
  Using Standard Financial Information Structure
  Attributes
  The SFIS business rules require ERP systems to use SFIS attribute fields for general ledger
  posting and financial reporting. The BPN number is the key for obtaining and reporting business
  partner information and used for establishing a vendor master record. Information extracted
  from either the FedReg or CCR should be used to create all records and populate the three SFIS
  Trading Partner Information attributes. Table H-1 shows how AESIP personnel should obtain
  the attributes and domain values from the data reported in the source files (FedReg and CCR)
  and create the master vendor data in AESIP.

                      Table H-1. SFIS to AESIP Attributes and Domain Values
                SFIS                           Source Data Field                   AESIP
              Domain                                                         Data      Domain
Attribute      Value         Entity        FedReg              CCR           Field      Value
TP1                                                          Type of
                             Federal      Data field
                                                          Organization
                  F          Trading         not                                            F
                                                         field identified
                             Partner      available                          Federal/
                                                            as Federal
                                                                              Non-
                                                             Type of
                              Non-                                           Federal
                                                          Organization
                             Federal                                        Indicator
                 N                           N/A         field identified                   N
                             Business
                                                          as other than
                             Partners
                                                             Federal
TP2                                                                          Trading
                             Federal                                                    Department
               3-digit                   Department                          Partner
                             Trading                          N/A                        Regular
                code                       Code                             Indicator
                             Partner                                                      Code
                                                                              Code
TP3            Data                                                                       Data
                        Non-DoD                          Data Universal
             Universal                                                                  Universal
                       Federal and          BPN           Numbering
             Numbering                                                                  Numbering
                         Private           Number           System
              System                                                                     System
                       Businesses                           number           BPN
              number                                                                     number
                                                                            Number
                                                         Data Universal
             DoD Plus                       BPN           Numbering                     DoD Plus
                              DoD
             DoDAAC                        Number           System                      DoDAAC
                                                            Number

  Trading Partner Attribute Requirements
  The SFIS established three distinct attributes that systems must record at the transaction level for
  general ledger accounts that identify the business partners involved. These attributes allow



                                                   69

accounting systems to identify intragovernmental transactions for use during the elimination
process when developing consolidated financial statements.

     •	 The SFIS Federal/Non-Federal Indicator (TP1) attribute identifies the type of business
        partner involved in a transaction. The type of business partner involved in a transaction
        determines whether to report the transaction as Federal or non-Federal. To identify
        intragovernmental transactions for elimination, the Army ERP systems need to have the
        capability to distinguish between Federal and non-Federal transactions. To develop SFIS
        attributes, AESIP personnel need to establish each business partner’s TP1 information
        using data obtained directly from the CCR data field that identified the type of
        organization the business partner registered as or record a domain value of “F” for all
        business partners registered in FedReg.

     •	 The SFIS Trading Partner Indicator Code (TP2) attribute identifies the Department
        Regular Code of the other Federal entity involved in a transaction. 23 The TP2 attribute
        allowed Army ERP managers to identify the specific Federal entities involved in
        intragovernmental transactions for use in its intragovernmental elimination process. For
        Federal business partners, AESIP personnel need to establish each business partner’s TP2
        information using data obtained from the FedReg’s Department Regular Code data field.
        For non-Federal business partners, the TP2 domain value is blank.

     •	 The SFIS BPN Number (TP3) attribute records a unique, nine-position alphanumeric that
        identifies business entities on a location-specific basis. To populate the domain value,
        AESIP personnel need to establish each business partner’s TP3 information by obtaining
        the DUNS number or “DoD” plus DoDAAC directly from FedReg or CCR. The TP3
        attribute should be the primary data field for establishing the AESIP vendor master
        records.

Business Partner Status
Army ERP systems also needed to have the capability to identify the current registration status
for each business partner. The Federal Acquisition Regulation does not allow inactive business
partners from receiving new contracts or additional payments until a valid registration exists.
The CCR and FedReg provide the registration status of business partners. AESIP personnel
recorded this status in a data field and had to ensure that the vendor master identified the current
registration status of each business partner and passed that information to ERP systems regularly.




23
 The Department of the Treasury assigned a Department Regular Code to each Federal entity. For example, the
Department Regular Code for the Army is “021.”

                                                     70

Glossary
Attributes - characteristics of a U.S. Government Standard General Ledger account captured
and used to meet specific reporting requirements. Agency systems must record transactions
using U.S. Government Standard General Ledger 4-digit accounts plus attributes in order to
capture information needed to meet external reporting requirements.

Business Rules - principles identified in a DoD BEA document that should be followed so that
the target accounting system is populated with the correct data.

Commercial and Government Entity (CAGE) Code – a 5-digit identification number used
extensively within the Federal Government to identify companies doing or desiring to do
business with the Federal Government. The CAGE code provides a standardized method of
identifying a given facility at a specific location.

Data Universal Numbering System Number – unique 9-digit number that non-government
entities and Federal civilian entities (non-DoD) must obtain from Dun & Bradstreet,
Incorporated. An entity must use the number as its BPN number and for Federal Agency
Registration and CCR.

DoD Activity Address Code (DoDAAC) – a unique identifier of a unit, activity, or organization
that has the authority to requisition and/or receive materiel. DoD entities must use the letters
“DOD” followed by their 6-digit DoDAAC (for example, DOD123456) as their BPN number.

Domain Values – the possible valid data elements within an attribute. For example, the Federal
and Non-Federal Indicator use an "F" domain value to classify a transaction as Federal and an
"N" domain value to classify a transaction as Non-Federal.




                                              71

Deputy Chief Management Officer Comments





  a~                         DEPUTY CHIEF MANAGEMENT O FFIC ER
                                         901 0 DEFENSE PENTAGON
                                        WASHINGTON, DC 2 0301 ·90 10



                                                                                 FEB 18 2011


     MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL (FINANCIAL
                      MANAGEMENT AND REPORTING)

     SUBJECT: Comments to Draft Audit Report, " Logistics Modernization Program System
                    Procure-lo-Pay Process Did Not Correct Material Weaknesses"
                    (Project No. D2010- DOOOFI-0234.000)

            This memorandum responds to your request for comments on one audit recommendation
     contained in the draft audit report issued January 3, 2012. We concur with the recommendation
     contained in the subject draft audit report. Our detailed response to the recommendation is
     provided in the attachment.

                                  is the point of contact for this response. He can be reached by
     telephone at                or by email at

                                    Click to add JPEG file

                                                    ~--
                                                   Elizabeth A. McGrath


     Attachment:
     As stated




                                                                72
   DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR GENERAL (DoDIG)
  DRAFT REPORT DATED JANUARY 3, 2012, PROJECT NO. D2010· DOOOFI-0234.000
    "LOGISTICS MODERNIZATION PROGRAM SYSTEM PROCURE-TO-PAY
          PROCESS DID NOT CORRECT MATERIAL WEAKNESSES"

        OFFICE OF THE DEPUTY CHIEF MANAGEMENT OFFICER (DCMO)
                 COMMENTS TO DODIG RECOMMENDATION

RECOMMENDATION c.t: "We recommend that the Deputy Chief Management Officer
work with the Under Secretary of Defense (Comptroller) to review the use of legacy registration
processes, such as Commercial and Goverrunent Entity Codes and Routing Identifier Codes, to
determine whether DoD can eliminate the databases by incorporating them into the new System
for Award Management database."

DCMO RESPONSE: Concur. The Deputy Chief Management Officer will work with the
Under Secretary of Defense (Comptroller) and Defense Procurement Acquisition Policy to
investigate the legacy vendor data registry process to determine whether 000 can eliminate the
databases by incorporating them into the new System for Award Management database.


                              Click to add JPEG file




                                                          73
Department Of The Army Comments





                                    DEPARTMENT OF THE ARMY
                              OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                 FINANCIAL MANAGEMENT AND COMPTROLLER
                                          1()9 ARMY PENTAGON
                                        WASHINCiTON DC 20310..()109
             REPlYTO
             ATTENTION OF


                                                     FEB     2 2012
      SAFM-ZA


      MEMORANDUM FOR Assistant Inspector General for Audit, Department of Defense
      Inspector General, 4800 Mark Center Drive, Alexandria, VA 22350-1500

      SUBJECT: Army Response to Draft Report Project No. D201 0-DOOOFI-0234.000,
      Logistics Modernization Program System Procure-to-Pay Process Did Not Correct
      Material Weaknesses


      1. Enclosed is our response to recommendations A, B, and C in the subject draft report.
      The draft report recommends the Army develop a plan of action and milestones to bring
      the Logistics Modernization Program (LMP) system into compliance with the DoD
      Business Enterprise Architecture (BEA) Procure-to-Pay (P2P) business rules. We
      agree that the current P2P process has too many functions residing outside of LMP and
      that increased integration of these functions is desirable. We will review the feasibility
                                 Click to add JPEG file
      of increasing the level of P2P integration within LMP. Results of the review will inform a
      plan of action and milestones (POAM) identifying the desirable level of P2P integration
      within LMP.

      2. The report recommends the Army develop a plan to improve system access controls
      within LMP. As part of audit readiness discovery and evaluation activities, we will
      assess LMP key controls, identify deficient areas, and develop a plan to resolve
      identified deficiencies.

      3. The report also recommends that we direct in policy that the Army Enterprise
      Systems Integration (AESIP) Program Manager (PM) selVe as the vendor master data
      manager. We concur with the current role of the AESIP PM as vendor master data
      manager.

      4. My point of contact for this action is                 . She can be reached by
      e-mail at                              ilorbytelephone at

                                                                      n
      Encl                                 .?O\
                                                   (~l~1r\ .j~QM
                                                     Mary Sally Mdiiella, CPA




                                                                 74
                                  Enclosure: Official Comments

                Logistics Modernization Program System Procure-ta-Pay Process
                              Did Not Correct Material Weaknesses
                              Project No. D2010-DOOOFI-0234.000

Recommendation.

A.1. We recommend that the Director, Army Office of Business Transformation and Assistant
Secretary of the Army (Financial Management and Comptroller) develop a plan of action and
milestones to bring the Logistics Modernization Program system into compliance with the DoD
Business Enterprise Architecture Procure-ta-Pay business rules. Specifically, as part of the
Army Business System Information Technology Strategy, define the AI1TIY's plans for developing
effective and efficient Logistics Modernization Program system business processes that will:
        a. Integrate the contracting and entitlement functions.
        b. Expedite a solution for resolving the in-transit inventory posting logic problems and
        correct abnormal balances.
        c. Reassess the system's accounts payable business process flow and posting logic and
        determine whether additional problems exist that cause abnormal balances. If so,
        develop the corrective actions needed to resolve those problems.
        d. Develop performance indicators to assist in identifying the potential for significant
        posting errors and develop responsive corrective actions.
        e. Develop the edit checks and business workflows needed to control and route
        purchase requests and Military Interdepartmental Purchase nequests to the appropriate
                              Click to add JPEG file
        individuals for approval and funds certification. This should include:
                 (1) Associating fund codes and approval authority to an individual's assigned
                 activity.
                 (2) Assigning certification of funds availability to a limited number of individuals
                 and developing the requirement for the system to limit funds certification to only
                 these individuals.
                 (3) Directing that fund managers establish commitments for purchase requests at
                 the time an activity releases the requests for obligation actions.
                 (4) Developing the functionality needed for separate individuals to create and
                 accept Military Interdepartmental Purchase Requests within the system.
                 (5) Validating the data contained in the Program Activity Table and ensuring that
                 it is preparing manual documents correctly and developing compensating
                 controls to validate the data integrity of manually created obligations.
        1. Identify offline systems and procedures within the Procure-to-Pay phases, incorporate
        the functionality into the system, and discontinue the use of offline processes. In
        situations where Army managers cannot immediately incorporate the functionality,
        develop compensating controls over non-integrated offline processes and restrict the
        creation of manual commitment and obligation transactions to resource management
        personnel.
        g. Develop functionality within the system to capture and record the actual vendor
        invoice date, vendor invoice number, and date of invoice receipt at the paying station.
        Also, develop the data fields needed to record separately the actual receipt and
        acceptance dates for goods and services.
        h. Develop the ability to identify all documents related to Procure-ta-Pay transactions
        within a single system query.
        i. Develop a ready-to-pay file based on the system's approval of prevalidation requests.

                                                 2




                                                             75
      Annv Response: Concur. We recognize that there are opportunities to improve the
      efficiency 01 procure to pay (P2P) processing in the Logistics Modernization Program
      (LMP). Current process segmentation adds to interface complexity and error rates and
      is a source of abnormal balances. Our current system design, however, is normal for
      typtcal EAP Implementation best practice. Best practice ls to reduce risk associated with
      "grand design" implementation projects by first fielding a basic capability and then
      capitalizing on investment via driving more functionality into the system. As part of the
      Army Business System Information Technology Strategy (BSIT), we will review the
      feasibilty at integrating additional P2P functionally within the LMP environment to
      include recommendations in this audit report. Results of the review will be used to
      develop a plan of action and milestones (POAM) addressing the viability of integrating
      additional contracting and entitling functions, improving internal controls, identifying and
      correcting abnormal balances relating to P2P transactions, and developing and tracking
      additional matries and performance indicators. Our POAM will reflect limitations
      imposed by the Department's Business Enterprise Architecture related to contract
      writing, vendor Invoicing, payment entitlements and disbursement processing.

       Although the feasibility analysis and P2P POAM w~1 identify additional opportunities to
       enhance LMP P2P processing, significant improvements were made during 2011. For
       eKample, we corrected the current configuration for contract authority, corrected posting
       logic for IMPAC expenses, enhanced conHguration of Defense Travel System COTS) and
       Integrated Product-Support Vendor (IPV) transactions. Additionally, our December 2011
       software release added capabilities for constructive receipts, automated in-transit
                            Click to add JPEG file
       Inventory accrual prooesses, improved the derivation of Federal vs. Non-Federal
       indicator, corrected posting logic resulting in the reduction of abnormal balances, and
       Improved access controls to prevent inaccurate cross-command postings. Thase
       improvements enabled a $1 .9 billion reduction in abnormal balances between August
       and December 2011.

       The Army will continue to leverage the Business System Information Technelogy (BSIT)
       strategy and governance procedures to implement additional improvements as updates
       to the Standard Financial Information Structure (SFIS) and Business Enterprise
       Architecture (SEA) are published. We are currently in requirements definition
       discussions for Local Vendor Pay (LVP) enhancements enabling ltvlP to perform vendor
       payment entitlement functions currently handled by the Compulerized Accounts Payable
       System - Windows (CAPS-W). These requirements include edit checks and business
       workflows nceded to control and route purchase requests and Military Interdepartmental
       Purchase Requests (MIPRs) through LMP to the appropriate individuals for approval and
       funds certification, management of vendor data, and entitlement functions . We expect to
       complete our requirements analysis by March 2012.

A.2. We recommend that the Assistant Secretary of the Army (Financi~1 Management and
Comptroller) direct the Army Materiel Command G·a to:
       8 . Conduct Q review of the unobligated authority general ledger account balances to
       detcnnine whether an Antideficiency Act violation occurred. and take actions to correct
       the abnormal balances and posting logic problems related to the accounts.
       b: Modify the Logistics Modernization Program system to cease the automatic obligation
       of unmatched disbursements until activities accomplish proper reconciliation as required
       by the DoD Financial Management Regulation-


                                               3




                                                           76
       c. Develop a system edit check that identifies when an activity exceeds the allotment
       contained in General Ledger Account Code 4610 and require activities to report each
       occurrence to the Office of Assistant Secretary of the Army (Financial Management and
       Comptroller) for Immediate resolution.

       Armv Response: Concur. We will direct HQAMC to work with Defense Finance and
       Accounting Service (DFAS) Columbus to review all limits and determine if any are over·
       obligated. If this review discloses an Antideficiency Act violation has occurred,
       appropriate action will be taken. Abnonnal balances disclosed by the review will be
       corrected. We will complete this review by June 2012. Army is in the process of
       determining a compliant process so that it can discontinue the automatic obligation
       process for UMDs (ZK process). We will conduct a workshop in March 2012 with
       HQAMC, LMP PM, DoDIG, and DFAS to determine a compliant process and provide
       m ilestones for transttioning 10 that process. Recognizing that there are some limitations
       on customizing SAP, we will make use of existing reports to better monitor and flag
       potential Issues with GLAC 4610. We will include milestones re lated to these actions in
       the P2P POAM developed in response to Recommendation A 1 .

A.3. We recommerld thaI the Assistant Secretary of the Army (Rnancial Management and
Comptroller) direct the development of a comprehensive internal control program for the
Logistics Modernization Program Procure·to·Pay business process to assess the quality of
performance and regular management and supervisory activities over the business process.
Army managers should work with Logistics ModerniZation Program Project Office personnel to
ensure that they design and implement the necessary procedures and controls and develop the
                             Click to add JPEG file
testing needed to ensure control effectiveness.

       Army Response: Concur. As part of our Financial Improvement Plan audit readiness
       discovery and ovaluation activities, we will assess key controls supporting all Financial
       Improvement and Audit Readiness (FIAR) assessable units, including those related to
       procure to pay activfties. The assessment will determine the effectiveness of the design
       and operation of applicable control3 and identify corrective actions required to bring
       controls into compliance with audit standards . The assessment might also recommend
       establishing a standard performance objective for those managers and supervisors
       working P2P processes. These actions will be completed during FY 2013.


B.1. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) develop a plan for the Army Materiel Command to improve system access controls
within the logistics Modernization Program system. Specifically:

       a Cetennine the impact of regulatory requirements , such as the Certifying Officer'S
       Legislation, on the development and issuance of the functional security role templates.
       Within 60 days of the report, identify and correct missing and defiaent official
       appointment documentation before allowing access to the templates. Once identified ,
       supervisors and syst9/1l administrators should ensure the proper appoi ntment of users
       before granting access to the templates containing those functions.
       b. Pe rform a risk assessment of the Logistics Modernization Program syste m transaction
       screens assigned within each of the functional security role templates and minimize the
       potential for segregation of duties conflicts . Once this assessment is completed,
       managers should redesign the le"lliates to cover the specific job functions performed at


                                                4




                                                            77
      each activity and limit user access to only those transaction screens needed to perform
      those Job fUnctions.
      c. Require the mapping of each Junciional security role template to the-Procure-to-Pay
      business process to determine the existence or potential segregation of duty and least
      privilege conflicts. If conflicts exist, realign the transaction screens as necessary to
      prevent these conflicts.
      d. Update the logistics Modernization Program User Access Policy and include detailed
      procedures that prescribe:
              (1) How administrators and supervisors should assign 'unctional security roles to
              users.
              (2) How to manage user access to include the use of approval databases or
              another tracking mechanism.
              (3) How administrators should perform regular review of system access accounts
              suspended due to Inactivity and work with supervisors to suspend or remove all
              roles when a user depart::; a work unit, leaves an activity installation, or loses a
              security clearam"e
                               .. and obtain approval by the new supervisor of all access
              granted after reassignment.
      e. Conduct an initial review of system access, at all levels, to identify users who have
      been granted unneeded access and, thereafter, conduct periodic reviews of system
      access.
      f. Develop a method to monitor the assignment of functional security roles at the highest
      level and ensure that activities conduct the required periodic reviews.

      Army Response: Concur. ASA(FM&C) will direct HQAMC and DFAS to perform a
                            Click to add JPEG file
      comprehensive review of LMP system controls. The review will cover access controls,
      interface controls, process controls, configurallon controls, and data integrity. It will
      identify system access deficiencies and risk; and provide an approach for improving
      them. Necessary risk assessments, compensating control reviow, role mapping ,
      acquisition of provisioning tools/systems to identify and mitigate SOD-issues, and po~cy
      updates will be included as part of the effort. The review will begin on/about March
      2012.

       Army and HQAMC will provide business rules for handling Segregation of Duty (SOD)
       conflicts to update Functional Security Roles (FSRs). Many of the FSRs across the
       enterprise are already standard. Until Governance, Risk and Compliance (GRC)
       implementation we will continue to use existing meetings and polic.y to minimize
       Segregation of Duties conflicts. The HQAMC User Account Manager Policy was signed
       by HQAMC, Chief Information Officer, on January 24, 2012. Managers and supervisors
       receive training on the use of the User Account Management system on a regular and
       ad hoc basis as system and personnel changas occur. The policy stipulates the review
       of all suspendod inactive accounts on an annual basis to determine if access is still
       required . Army is in the process of reviewing appointment documentation. Additional
       requirements will be identifiad in the POAM developed in response to Recommendation
       A.1.

B.2. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) work with the Army Materiel Command to:
       a. Provide centralized training for administrators and supervisors on how to use
      functional security role templates to administer access and prevent conflicts.



                                                5




                                                           78
       b. Purchase the system software needed to assist in developing the system controls
       needed to prevent or identify excessive or unauthorized access, or identify and develop
       compatible system controls using other means.
       c. Control administrator roles and prevent administrators from assigning functional
       security roles to themselves or develop appropriate compensating controls.

       Armv Response: Concur. Upon completion of the review in Recommendation B.1, the
       Army will be in a better position to identify training requirements, target audiences, and
       the right automated tool to handle provisioning of users and controlling system
       roles/permissions. Within 60 days of the review, Army and HQAMC will review current
       training requirements and adjust accordingly. The new HQAMC User Account Manager
       Policy addresses functional security role assignments and the mitigation of segregation
       of duties conflicts. HQAMC G-6 will conduct periodic reviews to ensure UAMs are not
       assigning themselves privileges and 'Nill take action for any user violating their
       privileges. HQAMC G-6 will oversee and instruct the commands on how to conduct an
       annual UAM review during 3rd quarter of FY2012. Additional corrective requirements
       will be addressed in the POAM developed in A 1.

       LMP went live without Governance, Risk and Compliance (GRC) SAP functionality.
       However, there are plans to begin configuration of the GRG functionality in February
       2012 with an implementation date of December 2012. GRG is an automated risk and
       compliance monitoring activity which will proactively mitigate risk and provide system
       controls needed to prevent or identify excessive or unauthorized access and segregation
       of duties conflicts. FSRs will be reviewed and if necessary redesigned after GRG
                             Click to add JPEG file
       implementation to minimize risk.

C.2. We recommend that the Director, Army Office of Business Tramlformation and Assistant
Secretary of the Army (Financial Management and Comptroller) direct in policy that the:
       a. Army Enterpriso Systems Integration Program Manager serve as the vendor master
       data manager with the authority and personnel to:
               (1) Require all systems doing business with the Army to use only the vendor
               master to populate business partner information.
               (2) Prevent Army Enterprise Resource Planning system users from creating,
               modifying, or deleting vendor information and only allow for view access to
               master data by other system users.
               (3) Validate the integrity of the business partner information contained in the
               vendor master records.
               (4) Create all business partner records from information contained in the Federal
               Agency Registration and Central Contractor Registration.
               (5) Establish individual business partner records using the Business Partner
               Network number and create data files to populate the applicable Standard
               Financial Information Structure attributes.
               (6) Issue instructions on the administration and use of Anny vendor infonnation.
       b. Routing Identifier Code locations register within Federal Agency Registration
       database before creating a business partner record in the Army vendor master record for
       doing business transactions with the Army or accepting any supplemental business
       partner information from that location.
       c. Army Enterprise Resource Planning Project Offices:
               (1) remove functional security roles capable of adding. revising, or deleting
               vender information; and

                                                6




                                                           79
               (2) cease developing change requests for correcting of vendor master data.

       Army Response: Concur. The Army's business strategy is managed by the Office of
       Business Transformation. The "Army Business Systems Inlormation Technology
       Strategy" dated February 14, 2011 serves as the Anny's foundation and roadmap for
       executing our enterprise architecture. The BSIT states that AESIP synchronizes and
       syndicates select enterprise master data applicable to each Army ERP ,system.
       AdditionaJIy, AESIP supports integration hub services for each system. as applicable .
       The B81T strategy 15 'a living document and will evolve in response to changes .
       Consequently, AMC and ASA (FMC) personnel will work with OBT personnel to
       reevaluate and adjust as necessary the functions of the AESIP PM and his r~e as the
       vendor master data manager. TIle Army will continue to leverage the Business System
       Infonnation Technology (8SIT) strategy and governance procedures to implement
       additional improvements as updates and opportunilie!3 avaU themselves .


C.3. We recommend that the Army Enterprise Systems Integration Program Manager create
and manage a vendor master based on the System for Award Management database that can:
      a. Populate required vendor-related Standard Financiallnformalion Structure attributes
      with valid domain values.
      b . Establish the Business Partner Network number as the key data field for all business
      partner records and use that data field when receiving and sending information to Army
      and other systems.
      C. Identify a nd track the business partner registration status in the Central Contractor
                             Click to add JPEG file
       Registration and Federal Agency Registration databases and System for Award
      Management database once implemented.
      d. Obtain all vendor information needed by Army Enterprise Resource Planning systems
      and supporting systems.

       Army Response: Concur. The PM AESIP will work with the stakeholde rs to
       implement this recommendation. Actions take n wilt require policy. system and process
       changes, and validation of Army vendor data to ensure that it is in sync with SAM vendor
       data.

       With respect to SAM, according to the latest data element listing at General Services
       Administration, the ePN term wil not be used. Commercia.l and non-goverrunent entities
       will r:eglster w ith their DUNS number and il w ill be stored in the SAM DUNS # field. 000
       agencies will register with their DODAAC and it w~1 be stored in the SAM DOOAAC field.
       The AESIP vendor master will be enhanced 10 be in line with the new data. We will work
       with LMP on the best and most cost affective approach to have their system support the
       design. Ideally, performing all fedlnon·fad derivations in AESIP, syndicating the results
       to the other systems, and prohibiting changes anywhere except in AESIP is the desired
       goal. A cost·be nefit analYSis will be required to determine if this yields a tangible return
       on investment.

       Actions related to item C.3.c. are comple ted. AESIP currently receives the registration
       status and passes this information to the EAPs and will continue to recerve and provide
       this information with the migration to SAM.




                                                 7




                                                            80
C.4. We recommend that the Assistant Secretary of the Army (Financial Management and
Comptroller) validate that the Logistics Modernization Program system has controls in place to
reject new contracts and payment requests 1rom business partners with inactive vendor
registration flags.
        Army Response: Concur. Army will validate transactional data as part of internal
        control assessment. The test will include a validation of business partner data in LMP
        compared to the data for that business partner in AESIP. This validation will occur after
        we have implemented SAM, but not later than September 30,2012. Additional
        requirements will be addressed In the POAM developed in response to
        Recommendation A.1.




                               Click to add JPEG file




                                                   8




                                                             81
